<html>
<title> - HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2009 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-132]

 
                                HEARING
                                   ON
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2009
                                  AND
              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                 STRATEGIC FORCES SUBCOMMITTEE HEARING

                                   ON

 BUDGET REQUEST FOR THE DEPARTMENT OF ENERGY NATIONAL SECURITY PROGRAMS

                               __________

                              HEARING HELD

                             MARCH 12, 2008

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                  U.S. GOVERNMENT PRINTING OFFICE
44-781                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
  

                     STRATEGIC FORCES SUBCOMMITTEE

                ELLEN O. TAUSCHER, California, Chairman
JOHN SPRATT, South Carolina          TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               TRENT FRANKS, Arizona
RICK LARSEN, Washington              MAC THORNBERRY, Texas
JIM COOPER, Tennessee                MICHAEL TURNER, Ohio
DAVID LOEBSACK, Iowa                 MIKE ROGERS, Alabama
NIKI TSONGAS, Massachusetts
                 Rudy Barnes, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                      Zach Steacy, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, March 12, 2008, Fiscal Year 2009 National Defense 
  Authorization Act--Budget Request for the Department of Energy 
  National Security Programs.....................................     1

Appendix:

Wednesday, March 12, 2008........................................    29
                              ----------                              

                       WEDNESDAY, MARCH 12, 2008

FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
          THE DEPARTMENT OF ENERGY NATIONAL SECURITY PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Everett, Hon. Terry, a Representative from Alabama, Ranking 
  Member, Strategic Forces Subcommittee..........................     3
Tauscher, Hon. Ellen O., a Representative from California, 
  Chairman, Strategic Forces Subcommittee........................     1

                               WITNESSES

Podonsky, Glenn S., Chief Health, Safety, and Security Officer, 
  U.S. Department of Energy......................................    12
Rispoli, Hon. James A., Assistant Secretary for Environmental 
  Management, U.S. Department of Energy..........................     9
Smolen, Gen. Robert L., USAF (Ret.), Deputy Administrator for 
  Defense Programs, National Nuclear Security Administration.....     5
Tobey, Hon. William H., Deputy Administrator for Defense Nuclear 
  Nonproliferation, National Nuclear Security Administration.....     7

                                APPENDIX

Prepared Statements:

    Podonsky, Glenn S............................................    70
    Rispoli, Hon. James A........................................    61
    Smolen, Gen. Robert L., joint with Hon. William H. Tobey.....    33

Documents Submitted for the Record:

    Four photographs submitted by Hon. James A. Rispoli, 
      Assistant Secretary for Environmental Management, U.S. 
      Department of Energy.......................................    95

Witness Responses to Questions Asked During the Hearing:

    Mr. Franks...................................................   101

Questions Submitted by Members Post Hearing:

    Ms. Tauscher.................................................   105

FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
          THE DEPARTMENT OF ENERGY NATIONAL SECURITY PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                         Washington, DC, Wednesday, March 12, 2008.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2212, Rayburn House Office Building, Hon. Ellen Tauscher 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Ms. Tauscher. Good morning. This hearing of the Strategic 
Forces Subcommittee will come to order. Today, we will consider 
the Department of Energy's (DOE) Fiscal Year (FY) 2009 budget 
request for Atomic Energy Defense Activities.
    Let me begin by welcoming our distinguished witnesses: 
General Robert L. Smolen, Deputy Administrator for Defense 
Programs, National Nuclear Security Administration (NNSA); the 
Honorable Will Tobey, Deputy Administrator for Defense Nuclear 
Nonproliferation, National Nuclear Security Administration; the 
Honorable James Rispoli, Assistant Secretary for Environmental 
Management, Department of Energy; and Mr. Glenn Podonsky, Chief 
Health, Safety and Security Officer, the Department of Energy.
    Gentlemen, thank you very, very much for being here.
    I want to thank our witnesses for appearing before the 
subcommittee.
    General Smolen, I believe this is your first appearance 
before the committee, and we welcome you.
    General Smolen. Thank you, ma'am.
    Ms. Tauscher. The fiscal year 2009 budget request for the 
Department of Energy is just over $25 billion. The Armed 
Services Committee annually authorizes about two-thirds of this 
total for Atomic Energy Defense Activities.
    For fiscal year 2009, the request of $15.9 billion for 
these programs is $770 million more than was appropriated in 
fiscal year 2008.
    This committee and I are strong supporters of the critical 
missions embodied in your respective program areas: maintaining 
and ensuring the reliability, safety, and security of our 
nuclear deterrent; conducting the scientific research and 
production activities necessary to support that deterrent; 
keeping our nuclear weapons and weapons complex safe from 
physical and other threats; leading the government's 
international nuclear nonproliferation efforts; and cleaning up 
the environmental legacy of decades of nuclear stockpile work.
    We are eager to hear your testimony on the fiscal year 2009 
budget request. I am especially interested in your thoughts 
about five issues.
    First, does the budget include the right investments in the 
Stockpile Stewardship Program (SSP)?
    While the Reliable Replacement Warhead (RRW) proposal was 
slowed in fiscal year 2008, we must continue efforts to 
strengthen the stewardship program. That means both the 
scientific tools that are coming on line, such as the second 
axis at DARHT (the Dual-Axis Radiographic Hydrodynamic Test 
facility), the National Ignition Facility (NIF), and the world-
class scientists and engineers that deploy those tools to 
execute the stewardship mission. And we expect a steadfast and 
sustained commitment to fulfill the requirements to initiate 
the Ignition Campaign in 2010 and provide full funding to do 
so.
    In that context, what is the current path forward for the 
RRW proposal, and when will you deliver to Congress the long-
promised white paper on nuclear weapons policy? How do these 
plans affect Complex Transformation?
    Second--and I asked this a year ago--does the budget 
properly balance various safety and security priorities? Can 
the NNSA bring the complex into compliance with the 2005 Design 
Basis Threat (DBT) standards while addressing rapidly 
escalating cyber security threats?
    Third, does the budget support the various commitments the 
Federal Government has made within the cleanup program?
    Fourth, does the budget adequately support consolidation of 
special nuclear materials (SNM)? How do consolidation plans 
affect the broad areas of stockpile stewardship, complex 
modernization, nonproliferation, safety and security, and 
environmental cleanup?
    Finally, I would like to know why the Defense Nuclear 
Nonproliferation budget is cut below the fiscal year 2008 
funded level in a number of areas, including verification 
research and development (R&D), and nonproliferation and 
international security. These programs are some of the best 
national security investments this Nation makes, and anything 
less than robust funding is difficult to understand.
    These are the kinds of concerns we hope you will address in 
your statements and during our discussions that will follow the 
testimony.
    With that, let me turn to my good friend, our Ranking 
Member, the distinguished gentleman from Alabama, Mr. Everett, 
for any comments he may have.
    And before I turn to you, Mr. Everett, I think we have just 
come in, and it looks like we may have a series of votes right 
in the morning after the 10 a.m. ceremony. So, we will watch 
that as closely as we have. But after we do Mr. Everett's 
remarks, we will begin the testimony from our witnesses.
    I apologize if we have to run back and forth for votes. We 
will make you as comfortable as possible. But this is an 
enormously important hearing, and we would like to be able to 
continue, considering the fact that we do have votes to do in 
the middle.
    Mr. Everett.

STATEMENT OF HON. TERRY EVERETT, A REPRESENTATIVE FROM ALABAMA, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Everett. Thank you very much, Chairman Tauscher. This 
is an important hearing, and thank you for calling this hearing 
and getting us to this point.
    I am honored to welcome our guests here today. 
Congratulations, General Smolen, on your new position. I am 
always glad to see an Auburn graduate up here. Although, I tend 
toward University of Alabama, as Bart Starr introduced me when 
I first ran for Congress. But I want Auburn to win every single 
game but one.
    Mr. Rispoli, Mr. Tobey, Mr. Podonsky, it is a pleasure for 
you to be with us.
    And the subcommittee is committed to assuring the United 
States maintains a strong strategic deterrent for our national 
security, and for the security of our allies and friends. I 
believe our nuclear capabilities will continue to play a 
principal role in this.
    Last summer, we saw what happens when our nuclear focus is 
diminished. The B-52 Bent Spear incident highlighted the need 
to reinforce the primacy of the nuclear mission and provided an 
opportunity to review both Department of Defense (DOD) and DOE 
nuclear weapons handling and security procedures. I commend the 
chairman for her leadership in this issue and for seeking ways 
to improve the inventory control of our nuclear weapons.
    I would like to highlight a few areas that I am interested 
in hearing about today.
    First, the commander of Strategic Command (STRATCOM) 
recently testified that we are accepting significant future 
risk with our legacy Cold War stockpile. These risks include 
reliability, safety, security, and maintenance that were 
respectable back then, but not what a modern military commander 
would like to have for the future. What is your assessment, and 
how are you meeting his needs?
    NNSA has done a remarkable job maintaining our nuclear 
weapons with the Stockpile Stewardship Program. With these 
science and engineering tools, you have provided confidence 
that our stockpile, today, works without testing. A very key 
challenge I see ahead is how we manage the risk.
    I use an analogy that we can relate to: No matter how good 
my automobile mechanic and his tools are, my 1960 Chevy is 
still a 1960 Chevy. The repair and maintenance costs start to 
add up; at some point, there is a risk that my next car problem 
may be catastrophic, and at some point, I look at the cost-
benefit of repairing my old car or buying a new car. As we look 
at our Reliable Replacement Warhead in inevitable tradeoffs 
with Life Extension Programs (LEPs), we face the same sort of 
issue.
    When might we see a problem in the current stockpile that 
could impact our nuclear deterrent? What level of risk is 
acceptable to our military commanders and our lab directors? 
What is the cost-benefit of the RRW approach versus other 
approaches?
    Mr. Smolen, this year's budget request for RRW is a mere 
$10 million. I cannot imagine that it is significant to compete 
with a Phase 2a cost and study design, which is important to 
inform the Strategic Commission, Complex Transformation, and 
future decisions about the Nation's stockpile size and 
confidence.
    Second, NNSA's Complex Transformation initiative to achieve 
a smaller, safer, less expensive complex makes a lot of sense. 
However, this is a large undertaking within a relatively flat 
budget.
    I am interested in hearing about your implementation plans, 
and about any cost analysis you can share.
    Mr. Rispoli, the Department has presented its plans for 
disposing of surplus plutonium and uranium. This plan proposes 
a three-prong approach. Yet, I understand the Department is 
considering a two-prong approach using H-Canyon and MOX (the 
Mixed Oxide Fuel Fabrication Facility). Can you tell us where 
you are with this decision?
    I would like to hear about the Department's project 
management efforts. The important Waste Treatment Plant (WTP) 
has been hampered by cost growth and schedule delay. What 
measures are being taken to ensure that DOE projects don't 
experience a similar fate?
    Mr. Podonsky, physical security of our nuclear weapons and 
material is essential. However, I am concerned that we have not 
focused enough energy on cyber security. DOE and NNSA have a 
tremendous technical workforce and infrastructure to support 
cyber efforts. Your observations are valued as we examine the 
National Cyber Initiative.
    Mr. Tobey, I have been impressed with the breadth of the 
activities of the U.S., working with international partners, in 
what has been undertaken to combat nuclear proliferation. I 
would, however, like to better understand how you measure the 
progress of these programs.
    Last, DOE and NNSA have had a key role in shaping the 
Nation's future deterrence posture. I hope the Strategic 
Commission we have established takes full advantage of the 
great depth of experience and expertise of your staffs. It is 
world-class men and women in organizations that you represent 
that have real capabilities, and we must maintain those 
capabilities into the future.
    Again, I would like to tell the chairman I agree with her 
remarks. This is an extremely important hearing. And we may be 
interrupted, but we will get through it somehow.
    Thank you for this, chairman.
    Ms. Tauscher. Thank you, Mr. Everett. Thank you for your 
leadership. And I agree with your remarks, too.
    Gentlemen, the floor is yours. As we have received your 
prepared statements in advance, we will be entering them in the 
record. If you could simply summarize, we would be welcoming 
that.
    And, General Smolen, we will start with you.

    STATEMENT OF GEN. ROBERT L. SMOLEN, USAF (RET.), DEPUTY 
 ADMINISTRATOR FOR DEFENSE PROGRAMS, NATIONAL NUCLEAR SECURITY 
                         ADMINISTRATION

    General Smolen. Madam Chair, Ranking Member Everett, and 
members of the subcommittee, I do thank you for allowing me to 
be here today to talk about our 2009 Defense Programs budget.
    As you noted, ma'am, this is my first appearance before the 
group. And I am the new guy, but I am honored to be here.
    I did retire from the Air Force last year after about 33 
years of service. My last assignment was as the Commander of 
the Air Force District of Washington, but just prior to that I 
was serving on the National Security Council (NSC). And that 
was during the same time that my colleague, Will Tobey, was 
also on the National Security Council, so we have a long 
history of working very closely together. We did very similar 
kinds of programs there that we help monitor now, and it is a 
privilege for me to be here again with Will and work these 
issues.
    Prior to going over there, I had been in charge of the Air 
Force Nuclear and Counterproliferation Offices, so I brought 
that more operational customer focus. And now I am seated in 
the supplier seat; and so what you see depends on where you 
sit, and so I will share with you some of the things that I am 
seeing today.
    My day-to-day working, though, with Will does reflect a 
synergy between the NNSA Defense Programs and Nuclear 
Nonproliferation. In 2002, of course, President Bush and Putin 
signed the Moscow Treaty and reduced the number of weapons to 
1,700 to 2,200 and cut the stockpile. And we have been very 
successful in doing that. In fact, it was achieved. The 50 
percent reduction was already achieved, and we are working on 
an additional reduction.
    But this is going to be the smallest stockpile that we have 
had in the last 50 years. And the reductions in that increase 
our workload in the dismantlement area. And I hope to touch 
upon many of the issues that both you and Congressman Everett 
mentioned in your opening remarks.
    But I do want to assert, certainly, that today's nuclear 
weapons stockpile is safe, secure, reliable, and it is not 
required any post-deployment nuclear testing to date, nor do we 
plan to do any.
    However, while the stockpile does remain safe, secure, and 
reliable, the weapons laboratories are justifiably concerned 
about the future. Our nuclear weapons complex is at a 
crossroads, and maintaining the status quo is an option that we 
simply cannot afford. Delay and inaction will only increase the 
costs and elevate the risks associated with maintaining this 
aging stockpile.
    Now, regardless of the stockpile transformation plans, we 
do have to upgrade our facilities. And the challenge for us 
will be to move from that aging nuclear weapons complex that 
many of you visited, and move into a 21st century national 
security enterprise that is integrated, modern, cost effective, 
and eliminates any unnecessary redundancy, but also keeps us at 
the forefront of our science and technology.
    Our efforts to effect this change were announced last 
December, and it was the Complex Transformation. We are going 
to simply try to replace some of our aged infrastructure and 
transform some of our contracting, procurement, and management 
practices to embrace the best in business and human capital 
processes that we can find.
    We also seek to leverage our core competencies in weapons 
design and engineering to advance our leadership in a whole 
host of other areas, areas that are very important to us, like 
counterterrorism, nonproliferation, physical security, cyber 
security, and support to our intelligence community (IC).
    The transformation strategy that we have set out on relies 
on four pillars. We want to transform the nuclear stockpile in 
partnership with the Department of Defense; we want to 
transform to a modernized, cost-effective nuclear weapons 
complex to support needed capabilities in our physical 
infrastructure; we want to create an integrated, independent 
enterprise that employs best business practices to maximize 
efficiency and minimize our costs; and, finally, we want to 
advance the science and technology base that is the cornerstone 
of our nuclear deterrents and is essential to our national 
security.
    As you mentioned, ma'am, the committee authorized $66 
million last year for the RRW concept study. Last year's 
Omnibus Appropriations Act zeroed out that program funding.
    However, the Administration and NNSA continue to believe 
strongly that it is necessary to pursue the concepts. And we 
have asked for $10 million to continue the study so that the 
future Administration will have an opportunity to make an 
informed decision on the composition of the stockpile.
    We believe the RRW concept is important for a number of 
reasons. By design, it would not provide a new role for nuclear 
weapons or any nuclear capabilities. As Congressman Everett 
mentioned, if you take a 1961 car or a 2008 car, it is still 
transportation. So we are providing the same capability; there 
is nothing really different in that. But it would help us to 
sustain our military capabilities.
    Building the RRW would not increase the size of the nuclear 
stockpile. In fact, it should further enable reductions. Once a 
transformed production complex demonstrates that it can produce 
replacement warheads on a time scale responsive to technical 
problems in the stockpile or adverse geopolitical changes, then 
the reserve that we would necessarily have to maintain could be 
eliminated, further reducing the nuclear stockpile and 
reinforcing our commitments to the Nonproliferation Treaty 
(NPT).
    Because replacement warheads would be designed with more 
favorable margins and less sensitive to the incremental aging 
effects, introducing them in the stockpile would also reduce 
the possibility that the United States would ever be required 
to have a nuclear test to diagnose or remedy the stockpile 
problems. This supports our overall efforts to dissuade other 
nations from conducting tests.
    By incorporating the modern security features, RRW would 
strengthen the security of the United States' nuclear weapons 
against unauthorized use in the event of a nuclear terrorist 
attack.
    And, finally, a secure, safe, reliable nuclear deterrent 
credibly extends to our allies and supports our 
nonproliferation efforts because our allies know that our 
nuclear deterrents extend a guarantee. This nonproliferation 
role of U.S. weapons is often misunderstood.
    I look forward to answering any further questions, and I 
will now turn the microphone over to my colleague, Will.
    [The joint prepared statement of General Smolen and Mr. 
Tobey can be found in the Appendix on page 33.]
    Ms. Tauscher. We have one vote, my colleagues. So if we 
would let Mr. Tobey go, and if you could summarize in about 5 
minutes, then we could take the vote and be back in about 15 
minutes. If that works for everybody, that is the way we will 
proceed.
    Mr. Tobey.

 STATEMENT OF HON. WILLIAM H. TOBEY, DEPUTY ADMINISTRATOR FOR 
  DEFENSE NUCLEAR NONPROLIFERATION, NATIONAL NUCLEAR SECURITY 
                         ADMINISTRATION

    Mr. Tobey. Certainly, thank you.
    Madam Chair, members of the committee, thank you for the 
opportunity to discuss our fiscal year 2009 budget request for 
nuclear nonproliferation.
    I am pleased to be here with my colleague Bob Smolen, as 
well as my Department of Energy colleagues. Bob and I do have a 
good working relationship, and I think that will translate to 
improved work at NNSA.
    I will be brief, knowing that your time is limited before 
the vote and also that members of this committee are well 
versed in our work.
    The fiscal year 2009 budget request for the Office of 
Defense Nuclear Nonproliferation totals $1.247 billion. This 
amount will allow us to continue our mission to detect, secure, 
and dispose of dangerous nuclear and radiological materials.
    Many of our efforts focus on nuclear materials and 
facilities security. We recognize that the best way to reduce 
the threat of proliferator or terrorist acquisition of nuclear 
weapons or devices is by denying them access to necessary 
nuclear and radiological materials in the first place.
    To that end, our fiscal year 2009 request will allow us to 
accelerate our work, including installation of radiation 
detection systems at 9 additional ports under our Megaports 
Program, for a total of 32 Megaport sites worldwide, helping to 
secure 49 border crossings and other high-risk ports of entry 
under our Second Line of Defense Program, and expanding export 
control and commodity identification activities with more than 
50 countries.
    Additionally, in fiscal year 2009, we will undertake a new 
initiative to strengthen international safeguards to prevent 
the diversion of nuclear materials to non-peaceful uses. This 
next-generation safeguards initiative will develop the 
safeguard technologies and human resources needed to sustain 
our nonproliferation efforts, and it will help to strengthen 
the Nonproliferation Treaty.
    Underpinning all of these efforts is our nonproliferation 
research and development work through which we will continue 
our leadership as the principal federal sponsor of long-term 
proliferation related R&D on nuclear detection and 
characterization.
    Our fiscal year 2009 budget request will also allow us to 
accelerate our efforts under the Global Threat Reduction 
Initiative (GTRI) to convert highly enriched uranium (HEU) 
fueled research reactors around the globe and to use less 
proliferation-sensitive, low-enriched uranium (LEU). To date, 
we have removed enough nuclear material for nearly 70 weapons 
and secured enough radiological sources for 8,000 dirty bombs.
    In fiscal year 2009, we will convert an additional 8 HEU 
reactors to LEU and remove an additional 700 kilograms of HEU, 
and secure an additional 125 radiological sites across the 
globe.
    Last year, I updated you on our progress under the 2005 
Bratislava Joint Statement on Nuclear Security in which we 
partnered with Russia to secure its nuclear weapons and sites 
of highest concern. I am pleased to report that we have 
completed 85 percent of these key upgrades to date; work is 
underway at the balance of the sites, and we are determined to 
finish it by our deadline at the end of this calendar year.
    In fiscal year 2009, should Congress grant our request for 
resources, our focus will be on completing additional high-
priority security works beyond the Bratislava agreement but 
still integral to ensuring optimal control over nuclear 
materials, and working cooperatively with Russia to put in 
place systems and procedures to sustain these security 
upgrades.
    Additionally, our fiscal year 2009 budget request also 
includes funding to ensure the shutdown of the last remaining 
Russian plutonium production reactor in 2010. These material 
security efforts enhance our work to strengthen the 
nonproliferation regime and the multilateral partnerships 
supporting it.
    In this regard, we will continue to support the work plan 
of the Global Initiative to Combat Nuclear Terrorism to advance 
the objectives of United Nations Security Council Resolution 
1540, which mandates effective export controls, criminalizes 
proliferation of weapons of mass destruction (WMD) by non-state 
actors, and requires states to secure proliferation-sensitive 
materials.
    We will, likewise, continue our technical and diplomatic 
support of U.S. efforts on the Nonproliferation Treaty within 
the nuclear suppliers group and on multilateral initiatives, 
such as international fuel assurances and on the disablement of 
the North Korean nuclear facilities which are now being funded 
through State Department funds. I would add that if we are to 
continue this work in North Korea, which I believe to be vital, 
we will need relief from the Glenn Amendment, which restricts 
funding.
    We feel a great sense of urgency to complete our missions. 
We appreciate deeply the strong support of this committee, and 
we look forward to working with all of you on these vital 
issues.
    I thank you for the opportunity to testify. If I could take 
a moment or two to address the questions that have been given 
to me already, I would like to do so, if you have time for 
that.
    [The joint prepared statement of Mr. Tobey and General 
Smolen can be found in the Appendix on page 33.]
    Ms. Tauscher. We have got to go vote. We have got to be 
there----
    Mr. Tobey. Okay.
    Ms. Tauscher [continuing]. In a 15-minute window. So we 
will vote. We think that there is only one vote, but it may be 
a little longer.
    The hearing will be suspended temporarily. Please make 
yourselves comfortable. The staff will let you know whether we 
are pinned down there for one or more votes. We will be back as 
quickly as we can.
    [Recess.]
    Ms. Tauscher. We want to thank everyone for their patience.
    Assistant Secretary Rispoli, thank you for appearing before 
us again. The floor is yours.

  STATEMENT OF HON. JAMES A. RISPOLI, ASSISTANT SECRETARY FOR 
      ENVIRONMENTAL MANAGEMENT, U.S. DEPARTMENT OF ENERGY

    Secretary Rispoli. Thank you, Madam Chairman.
    Good morning----
    Ms. Tauscher. Good morning.
    Secretary Rispoli [continuing]. Madam Chairman, Congressman 
Everett, members of the subcommittee.
    I am really pleased to be here today with my colleagues and 
would like to note that this marks 20 years since the 
Environmental Management (EM) Program was first established. A 
lot has been accomplished, and I actually have a few photos to 
share with you, but a lot more still needs to be done.
    When I first appeared before the subcommittee two years 
ago, I pledged to you that safety would remain our first 
priority. No milestone is ever worth an injury to our 
workforce.
    Today, I am pleased to report that worker injuries have 
been reduced by 50 percent in the past 3 years. And our injury 
rate is less than 10 percent of that in comparable commercial 
waste disposal and construction industries.
    When I was sworn into this position, I set about to refine 
all of EM's cost and schedule baselines which guide every 
project. During the past 18 months, all EM projects, both our 
line-item construction projects and our cleanup projects, have 
undergone independent audits to verify their costs and 
schedules as valid and reasonable.
    Today, our project estimates and assumptions can be viewed, 
I believe, by you and by all of our stakeholders with far 
greater confidence than ever before. And I stress to you the 
entire portfolio of the cleanup program has been independently 
audited.
    At that time, I also stated that our goal was for the cost 
and schedule performance of at least 90 percent of our projects 
to be on target or better than on target with respect to cost 
and schedule. In July of 2005, 17 of our projects were not on 
cost or on schedule, which equated at that time to 51 percent 
being on time and on cost.
    We have worked very hard at this, and today we have 
consistently maintained better than 90 percent of our projects 
on time, on cost. I know you cannot see this chart, but this 
just shows how we have consistently made progress in improving 
the performance of all of the projects in our program.
    Turning now to our fiscal year 2009 budget request, our 
request for Defense Environmental Cleanup is $5.3 billion, and 
it continues to be based on the principal of prioritizing risk 
reduction across the entire complex.
    Let me address an issue that I know has caused concern, has 
been reported in the press as caused concern to several Members 
of Congress, and that is that this request has broken with past 
understandings related to the Department's cleanup budget 
strategy.
    I will mention the testimony my predecessor gave to this 
subcommittee in 2004. Then Assistant Secretary Jessie Roberson 
testified that after a period of accelerated funding peaking in 
fiscal year 2005, ``We anticipate funding will then decline 
significantly to about $5 billion in 2008.'' Thus, viewed from 
this perspective our fiscal year 2009 budget request, for all 
accounts, is actually about a half billion dollars more than 
what was projected five years ago and reported to Congress five 
years ago.
    The Administration recognizes that with this budget before 
you some of the milestones in our cleanup agreements are in 
jeopardy of being missed. It is important, however, to note 
that other milestones are in jeopardy due to technical reasons 
regardless of funding.
    As a result, we have had to make very careful decisions 
regarding our priorities. The regulatory agreements that guide 
our work have been, and remain, important measures of progress. 
The Department's strategies continue to focus on cleanup that 
will produce the greatest environmental and safety benefit and 
the largest amount of risk reduction.
    I would like to highlight some of our accomplishments that 
demonstrate our ability to make progress in cleaning up the 
environment and reducing risk to public health and the 
environment.
    The first photo I would like to share with you is the 
Savannah River. You have the photo; it is labeled ``Savannah 
River M-Area.'' Here, nuclear fuel was fabricated for use in 
the Savannah River reactors to produce weapons-usable nuclear 
materials.
    DOE and its contractors decontaminated and decommissioned 6 
aboveground tanks and 22 buildings totaling more than 170,000 
square feet, which is equivalent to nearly 4 football fields. 
We continue to remediate the groundwater beneath this site.
    The second photograph is labeled ``Hanford Site River 
Corridor,'' and this area served a similar function as the M-
Area that you just saw at Savannah River. It is located on the 
outskirts of the city of Richland, and as you can see in the 
photo, it is right alongside the Columbia River. The area 
contained 270 radioactive and hazardous facilities.
    As you can see from the X's on the photo, we have 
decontaminated and demolished many of those structures, 140 to 
be exact, and have safely removed 2,000 metric tons (MT) of 
excess uranium for disposal or safe storage.
    The next photograph I will show you is a photograph of the 
gaseous diffusion converters and equipment at East Tennessee 
Technology Park. This shows that we have removed nearly 50,000 
tons of equipment, which is comparable to the displacement of a 
World War II-class battleship from the Oak Ridge K-31 Building, 
which is about the size of 40 football fields. Now that this 
high-risk material has been removed, the building is available 
for industrial re-use.
    In your letter inviting me to testify, you asked me to 
update you on major project activities in our program. Much of 
the information is contained in my written testimony, which has 
been submitted for the record. I would, however, like to 
highlight just three things.
    The Salt Waste Processing Facility at Savannah River: For 
that project, we expect design completion by early fall. Site 
prep is nearly complete, and we expect to begin construction of 
the base mat this June. In the meantime, we have been treating 
salt waste through interim processes for onsite disposal at 
Saltstone.
    For the Hanford Waste Treatment and Immobilization Plant, 
the design is approximately 75 percent complete, and the 
construction is nearly 40 percent complete. I have given you a 
photograph, an aerial, of that project as well, so that you can 
see a picture of just how large that is and how much has been 
accomplished.
    [The information referred to can be found in the Appendix 
beginning on page 95.]
    I would like to note that last week, Secretary Bodman 
informed Congress by letter that he had certified the Waste 
Treatment Plant's contractors earned value management system. 
This was required by Section 3120 of last year's National 
Defense Authorization Act (NDAA), actually the 2007 National 
Defense Authorization Act.
    As Chairman Tauscher mentioned, the Department is in the 
process of consolidating storage of surplus non-pit, weapons-
usable plutonium. We are moving it from Lawrence Livermore 
National Lab (LLNL) and Los Alamos National Lab (LANL), as well 
as the Hanford Site to the Savannah River Site (SRS). There, 
the plutonium is currently planned to be disposed of using up 
to three facilities: the Mixed Oxide Fuel Fabrication Facility, 
currently under construction; the existing H-Canyon; and a 
proposed small-scale plutonium vitrification capability.
    As Congressman Everett noted in his opening, the Department 
is indeed currently evaluating an alternative disposition 
approach that could eliminate the need for the vitrification 
capability and rely on the other two components.
    Highly enriched uranium is also being consolidated at the 
Savannah River Site using the H-Canyon to blend the material to 
a low enrichment to meet the Department's programmatic needs, 
and as appropriate for use in commercial reactors. Highly 
enriched uranium has already been shipped from the Y-12 Plant 
at Oak Ridge, and preparations have been made to receive the 
material from both the Lawrence Livermore and the Los Alamos 
National Labs.
    Two days ago, as you know, Secretary Bodman issued a policy 
statement on the management of the Department's excess uranium 
inventory, which reaffirms and is consistent with the approach 
that we are currently taking.
    Madam Chairman, I am proud of the progress our 34,000 
contractors and federal employees have made in recent years, 
and the wise and secure foundation we have been building for 
the future.
    This subcommittee has provided the critical guidance that 
has enabled us to accomplish the successes we have had to date. 
I look forward to working with you in my remaining time at the 
Department, and I thank you sincerely for supporting our 
efforts to reduce risk to our citizens, our communities, and 
our Nation. Thank you.
    [The prepared statement of Secretary Rispoli can be found 
in the Appendix on page 61.]
    Ms. Tauscher. Assistant Secretary Rispoli, thank you very 
much for your testimony.
    Mr. Podonsky, you have been here quite a few times. Welcome 
back to the committee. The floor is yours.

   STATEMENT OF GLENN S. PODONSKY, CHIEF HEALTH, SAFETY, AND 
          SECURITY OFFICER, U.S. DEPARTMENT OF ENERGY

    Mr. Podonsky. Thank you, Madam Chair and Ranking Member 
Everett, and members of the subcommittee. I appreciate your 
inviting me to testify today.
    I promise to be brief. But considering the broad missions 
of my organization, which affect all of my colleagues here, I 
think it is important that I summarize some of our important 
efforts that are underway currently.
    As the DOE's organization responsible for Health, Safety, 
and Security (HSS), we provide the DOE with policy development, 
technical assistance, training, independent oversight, and 
enforcement. We want to assure the committee that HSS continues 
to strengthen the Department's safety and security posture 
through initiatives based on the priorities established when 
our office was created.
    We have institutionalized our infrastructure; we are 
recognized by the DOE leadership team, the workforce, other 
U.S. agencies and the international community as an 
organization that is striving for excellence in health, safety, 
and security.
    With the creation of HSS, we saw the importance of 
identifying programs that would enable workers to have other 
access to DOE managers for worker health and safety. During the 
past year, we have conducted a series of focus group meetings 
with trade unions, professional associations, and DOE program 
offices to strengthen those lines of communication and identify 
areas of concern or interest. We interface extensively with 
other federal organizations to improve the overall safety and 
security posture of the Department.
    Our Security Technology Deployment Program has partnered 
with DOD, the intelligence community, and others for deployment 
of new security technologies. Using safety and security 
experts, we function as the corporate catalyst for deployment 
of effective security technologies across the complex.
    We have formed a new relationship with both the Department 
of Labor and the National Institute of Occupational Safety and 
Health to better facilitate the implementation of the Energy 
Employees Occupational Illness Compensation Program Act. We 
published a status report on the former Worker Medical 
Surveillance Program to inform our former and current 
workforce, Congress, and the public of the efforts being 
undertaken for those individuals who may have been exposed to 
harmful conditions while working for DOE.
    In the international arena, we renegotiated the agreement 
between DOE and Japan to end our 42 years of financial 
obligations in fiscal year 2009 for the environmental studies 
associated with the accidental release of nuclear materials in 
Palomares, Spain. We have also strengthened the DOE's 
relationship with the government of Japan and the Marshall 
Islands to better manage these health programs.
    We are currently in the process of completing a review of 
all security requirements, and initiated a review of all safety 
requirements to make sure that they are performance-based, 
clear and concise without being overly prescriptive or 
redundant. We continue to conduct comprehensive, independent 
oversight inspections of the DOE performance in security, cyber 
security, emergency management, environment safety and health. 
Results from these inspections provide the senior leadership 
and line managers with information needed for improvements.
    For example, our Office of Cyber Security executes one of 
the most aggressive, sophisticated cyber security oversight 
programs in the Federal Government. The cornerstone of our 
cyber-security function is to implement a rigorous penetration 
testing program in both announced and unannounced testing. 
Everyday threats to our information systems continue to grow, 
and while we have many challenges in this area, the Department 
is proactively addressing the weaknesses that we continue to 
identify in cyber security.
    HSS is also promoting improvement in the Department's 
safety and security programs through the implementation of 
DOE's legislatively mandated enforcement programs. We have 
integrated the Worker Health and Safety and Classified 
Information Security Enforcement Programs with the Nuclear 
Safety Enforcement Program. Our efforts have resulted in the 
highly publicized Notice of Violation against Los Alamos 
National Laboratory contractors. We are currently conducting 
several enforcement investigations, including an inquiry into 
the events that led to the release of nuclear material at the 
Hanford Site.
    Madam Chair, members of the subcommittee, the Secretary of 
Energy created HSS to strengthen worker health and safety and 
security, and we believe we have demonstrated to many of our 
skeptics that we can improve the health and safety and security 
of the Department while improving program management and 
alignment of the responsibilities and those functions. We are 
confident that with the continued support of the DOE 
management, our stakeholders in Congress, we can continue to 
expand on our accomplishments. Thank you.
    [The prepared statement of Mr. Podonsky can be found in the 
Appendix on page 70.]
    Ms. Tauscher. Thank you, Mr. Podonsky.
    We have another vote. It is a 15-minute vote. Perhaps we 
can start by just asking one question.
    And, General Smolen, the NNSA has identified goals for 
staff reduction at each of the labs and sites within the 
complex. Do the reductions that have already occurred during 
the current fiscal year count toward these goals?
    General Smolen. The Complex Transformation goal of 20 to 30 
percent would ultimately include those numbers. We still have a 
ways to go, and some of that will be dependent on the outcome 
of Complex Transformation and what choices are made.
    Ms. Tauscher. Okay. Thank you.
    Deputy Administrator Tobey, this is a question about 
plutonium disposition. In the Fiscal Year 2008 Consolidated 
Appropriations Act, funds were reduced for the planned MOX 
Fabrication Facility, as we all know, and transferred its 
funding out of the NNSA to the Office of Nuclear Security.
    However, a February 22, 2008, memo to Secretary Bodman from 
DOE General Counsel states that the Secretary is not legally 
able to transfer management of the project out of the NNSA. The 
memo recommends an Economy Act to formalize continued 
management of the MOX project by the NNSA with funding from 
Nuclear Energy.
    What cost increases and schedule delays will result from 
the cuts to the project contained in the Fiscal Year 2008 
Consolidated Appropriations Act, both in direct appropriations 
and rescinded on obligated balances?
    Mr. Tobey. Madam Chair, if I could answer both a question 
you raised in your opening statement----
    Ms. Tauscher. Sure.
    Mr. Tobey [continuing]. And this, because I believe they 
are related.
    You had asked about whether there are adequate funds in our 
budget for materials consolidations.
    Ms. Tauscher. Right.
    Mr. Tobey. I believe that is the case of the request. But I 
would note in that regard that a vital element of consolidation 
is our Fissile Materials Disposition Program.
    Ms. Tauscher. Right.
    Mr. Tobey. Unless that program is successful, we cannot 
successfully consolidate materials within the Department. And 
with respect to that, the cuts to the program within the 2008 
budget that you cited are a serious source of concern.
    With respect to what those cuts will result in, in terms of 
a longer project or higher costs, we are still working on that 
analysis. We will be forced to re-baseline the project, 
unfortunately, because of the cuts unless there is some 
restoration of those funds, which amount $215 million for the 
U.S. project alone. There were additional cuts to the overall 
program involving the Russian program.
    And so, we should come back to you once that re-baselining 
is done. Obviously, we want to be very careful and thorough in 
completing that because we want to give absolutely the most 
accurate figures that we can.
    Ms. Tauscher. As you know, we are going to be moving to our 
markup, which will be in the May timeframe--full committee, end 
of May--to the floor in June. That is our window of opportunity 
for us to do corrective action, if we need to, in this current 
bill. So we would like to work very closely with you to get 
these numbers, get the timeline adjustments, what the 
ramifications are of the shortfall, and how we actually work to 
correct it.
    I think that there is a linking that we have not clearly 
made about, if you want this result, then you have to do these 
two things. There is a twinning of them that is a case that we 
have not made--I mean ``we'' in the ``big we.'' So we are happy 
to help make that case, assuming that we understand what these 
ramifications are.
    So if we could, you know, chat in the next couple of weeks, 
certainly over the break, and then in early April, I think Mr. 
Everett and I, and the committee will be very interested in 
understanding exactly what these are, and what we can do in the 
bill that we are going to be building in the next 8 to 10 
weeks.
    Mr. Tobey. We would be very pleased to work with you. 
Budget cuts to an approved baseline result in project delays 
and higher costs. There is no way around it; it is a matter of 
physics and math.
    Ms. Tauscher. We appreciate that.
    We have about eight minutes left. Do you want to ask a 
question, Mr. Everett? I would be happy to go to you.
    Mr. Everett. Ms. Chairman, I would rather go and come back.
    Ms. Tauscher. All right.
    We apologize. We have got another vote. We will suspend the 
hearing temporarily, and witnesses will be made comfortable.
    [Recess.]
    Ms. Tauscher. Once again, we thank you for your patience.
    We are going to go to Mr. Everett for questions.
    Mr. Everett. And thank you, chairman.
    General Smolen, let me read from my opening statement: 
``This year's budget request for RRW is a mere $10 million. I 
cannot imagine that this is significant to complete the Phase 
2a cost and design study, which is important to inform the 
Strategic Commission, Complex Transformation, and future 
decisions about our Nation's stockpile and composition.'' And I 
would ask you if--let me go a step further here. As I 
understand it, the fiscal year 2009 funds would address the 
fundamental sites and certification questions raised by JASON 
and continue 2a cost and design studies. Is that really enough 
money? Will that really get us where we need to go to get this 
information to these folks?
    General Smolen. Sir, the $10 million that we have for RRW 
was to enable the maturation of the RRW design to address the 
questions raised by JASON, as you point out. These design 
refinements are necessary if we are going to have to establish 
the parameters for potential impacts on certification.
    No, sir, it is not what would be required to complete the 
study. In order to do that, we would need about $65 million 
more.
    Mr. Everett. The Commander of STRATCOM recently testified 
that we are accepting significant future risk to reliability, 
safety, and security and maintainability of our legacy Cold War 
stockpile, risks that were perhaps acceptable during the Cold 
War, but that would not be acceptable to our future combatant 
commanders and security of this country. Would you go into that 
a little bit?
    General Smolen. Yes, sir, I would be happy to. In fact, 
General Chilton and I were contemporaries and served together 
on several occasions. And I will be with him on Monday at 
Pantex.
    General Chilton has taken a very keen personal interest in 
understanding the complex and some of the challenges that we 
face. I think he is very, very aware of the situation 
surrounding the RRW concept. He is also very concerned about 
the issues associated with Complex Transformation in order to 
be able to support him and his successors in the future.
    In very broad terms, I think General Chilton has come to 
realize that, much of what you already know, that the aging 
weapons, coupled with the aging infrastructure, present us with 
potential challenges in the future that we simply have to do 
something about. And while we are on a path to begin to stem 
some of those issues, there are still a lot of challenges that 
we face.
    Mr. Everett. Would you go into detail about the possible 
risks associated with the LEP program?
    General Smolen. Well, sir, the difficulty we really have 
basically goes to the aging. As you very appropriately 
mentioned, we have a B61 built in the 1960's. We are in the 
process of trying to refurbish that. We did some work with the 
7, 11 with the physics packages. We still have a lot of non-
nuclear components that are tubes that we are concerned about.
    If General Chilton is being asked to establish plans for 
targeting, he needs to be certain that those weapons are 
capable of yielding what is required. And I think he has seen 
some of the challenges associated with that. The W76, as you 
know, we are working some issues with that; there are some 
challenges there.
    So I think he is just expressing a concern that as the 
stockpile continues to age, if we are faced with continually 
doing Life Extension Programs, and if some of the materials we 
need to do that are unavailable and we have to remanufacture 
new ones, then we continue to build on the uncertainty which 
may some time in the future have the lab directors question 
whether or not, in light of all the changes, they would be able 
to certify those weapons. And of course if they are not, then 
that is an extremely difficult position for General Chilton to 
be in.
    Mr. Everett. Is there window in which, at some point in 
time, we drop off the end of the cliff with this?
    General Smolen. I am sure there must be, sir, but we do not 
know what that is.
    Mr. Everett. That is one of the problems that we have in 
trying to decide funding issues and that sort of stuff.
    Ms. Chairman, that is my final question. But I would like 
to see if we can get some sort of idea of a time frame: when 
must we start working toward solving this problem?
    Ms. Tauscher. I agree with you, Mr. Everett. I also think 
the white paper is going to be informative, because it is a DOD 
product, and the client will direct us as to what they think 
the requirements will be, so we can match capabilities with 
requirements--
    General Smolen. Yes, ma'am, I believe the secretaries have 
either signed, or are on the verge of signing that paper over 
to you.
    Ms. Tauscher. Yes, I think we might see that in the next 10 
days. So, Mr. Everett, I agree with you.
    Why don't we talk subsequently. If you want another hearing 
on another issue, I think that some of this will be classified, 
and perhaps a hearing that we have talked about on other issues 
that have a classification issue that, whether it is MOX or 
other things, we will have to do that.
    General Smolen. Yes, sir, and the more specific issues that 
you were addressing as to some of the problem areas, we would 
have to go to a classified setting to discuss that much 
further.
    Mr. Everett. Chairman, thank you.
    Ms. Tauscher. Mr. Everett, thank you.
    Mr. Larsen of Washington.
    Mr. Larsen. Thank you, Madam Chair.
    Secretary Rispoli, welcome back. A few questions for you 
regarding Hanford. You can help us out with that.
    First question has to do with the Waste Treatment Plant. 
And we know it is designed to process 100 percent of high-level 
waste, about 50 percent of the low-activity waste at the 
Hanford Site, and the DOE has been pursuing a Bulk Vit 
Technology to process the remaining low-activity waste.
    Critical Decision-2 was expected for Bulk Vit Technology in 
January. Yet that milestone, so far as I know, has not yet been 
finalized. Further, the budget request includes only $1 million 
for Bulk Vitrification while supporting the pursuit of 
alternative approaches.
    Can you help me out with the true status of the Bulk Vit 
Technology development, the expectation when Critical Decision-
2 will be met, and DOE's plans for treatment and disposal of 
low-activity waste at Hanford?
    Secretary Rispoli. Thank you.
    As you correctly stated, the plant as it is designed will 
treat in its life 100 percent of the high-level waste, 50 
percent of the low-activity waste. That has been the plan ever 
since the plant was reconfigured at the end of the Clinton 
Administration, and it was upsized, you might say. Originally, 
it was only to treat 10 percent by volume, 25 percent by 
radioactivity content, of all the waste there.
    But it was upgraded, as I say, at the end of the Clinton 
Administration to the configuration we have now. So we have 
recognized all along that we have to have some sort of 
supplemental treatment to deal with the rest of the low-
activity waste.
    Right now, we are looking at bulk vit very, very seriously. 
And I have testified that in past years as well, as I am sure 
you know. We are also looking at other options, they are not 
mutually exclusive. What I am about to mention, when I say one 
they are not one versus another, these are options that we are 
looking at.
    One is Bulk Vitrification. One is perhaps adding a third 
low-activity waste melter. Another is seeing if we could 
increase the throughput of the low-activity waste melters. 
Another would be if we want to begin processing waste early, 
whether we would want to start processing even earlier than the 
completion of the entire plant in 2019.
    And because we have these options, and because we want to 
focus on the right way to go forward, I have asked that we have 
a group of outside people, outside experts, come in and take a 
report that was completed last November, I believe it was, of 
2007 called--it was a low-activity waste study. It is on both 
our DOE website, and it is on at the technology website, as 
well as on the Office of River Protection's website. And if you 
would like a copy, it is in the public domain. I could print 
one off and get it to you.
    But in any event, we have asked these people to look at all 
of these options--again, they are not mutually exclusive 
options--to help guide us to the right business decision, so 
that when we make that decision, we know that we have made the 
right decision. We don't want to make a decision and then 
determine that perhaps it is not optimal.
    Clearly, bulk vit has performed through all of its testing, 
its surrogate testing, and has performed very well. We are 
looking at: Where would it be? How many lines would it have? 
How long would the demonstration operate before you build the 
final one? Whether you really need the demo one at all, or 
could you go into a preliminary version of the final? All of 
these options we want to really understand, and I expect that 
within just a few months, we should have that nailed down.
    Mr. Larsen. So is that the reason, then, that Critical 
Decision-2 has not been met, which would be the approval of a 
performance baseline?
    Do you want to settle on your setup first?
    Secretary Rispoli. Well, I think that the two could be 
operating in parallel, and I think we were clearly waiting for 
the outcome of the tests. I think the latest tests were 
completed this winter. We had to wait for some laboratory 
results to come back. My understanding is all of those worked 
very well. So I don't know that we need to hold up on----
    Mr. Larsen. Okay.
    Secretary Rispoli [continuing]. The Critical Decision-2. 
But at the end of the day, in the final analysis, we really 
need the outcome of this group of experts. They are three 
eminent people in the Nation that have done this for us before, 
and I expect to have that in, like, the June timeframe.
    Mr. Larsen. In about June?
    Secretary Rispoli. Yes, sir.
    Mr. Larsen. With regards to River Corridor, I mean it goes 
without saying that inadequate support for Hanford funding, and 
much less funding for the other facilities around the country, 
over the last few years has made it impossible for DOE, with 
regards to Hanford, in our view in Washington state, to meet 
its obligations under the Tri-Party Agreement.
    In this budget, I am particularly concerned about the cuts 
in some programs on River Corridor that could lead to a 
degradation of the workforce that we have there. You noted, I 
think rightly so, that there has been a lot of cleanup, but 
this still leaves a lot left to do as well.
    So with these cuts in the programs leading to potential 
degradation of the workforce, that could lead to potential 
problems in the future. So given that these cuts exist and 
River Corridor closure could lead to degradation of the 
workforce, to layoffs, how can we plan to ensure that we will 
have a trained workforce to do the job in the future to get 
this completed? How do we maintain consistency?
    Secretary Rispoli. Yes, sir. I think that is a real 
challenge, for not only Hanford but for sites everywhere 
because there is such a demand for nuclear workers, and we know 
that when you shut down an operation, it takes time to bring it 
back up.
    I would point out that I did share with you all the photo 
with the X's through it of all the facilities that have come 
down at the River Corridor. And, as you know, we are structured 
by contract, and you are correct in talking about workforce.
    I would also like to point out that along the River 
Corridor primarily, this budget plusses up the groundwater 
efforts by $65 million, taking it from about $104 million to 
$169 million. And, as you know, the groundwater issue is the 
Columbia River; that is really what we are worried about.
    And so what we did was we went through a risk--we basically 
used a risk prioritization system. Our objective is to address 
the highest risks first. And I think that we recognize that 
with $2 billion a year going to Hanford, nominally $2 billion, 
we believe that the greater risk to the public and the 
environment is the groundwater.
    We have got some promising new technologies. We have 
plussed up, as I say, significantly in the groundwater area, 
and that is mostly along the River Corridor as well.
    So, we recognize that there will be some perturbations, but 
we also recognize we have got to focus on where is the higher 
risk. And we clearly think that has to be the Columbia River.
    Mr. Larsen. With regards to these technologies you mention, 
are they proven technologies, or is this going to be an 
opportunity to attempt to mature these technologies, to use a 
terminology that I hear around.
    Secretary Rispoli. Actually, we have had some great 
success. We are using materials that have not been used before. 
Some of the results have already been published in scientific 
venues. But, yes, we are having success.
    Before, we were primarily using pump-and-treat or other 
treatments, and we know that some of the contaminants were 
still getting to the Columbia River, or at least migrating 
toward it. And now we are injecting things into the ground that 
actually are interdicting and stopping.
    And so we are very pleased with the outcomes. We actually 
have a few pamphlets on it, again, that are in the public 
domain, and I would be happy to just get those to your office 
so you can see what we are doing.
    Mr. Larsen. Could you do that?
    Secretary Rispoli. Yes, sir.
    Mr. Larsen. Madam Chair, just an additional question, if I 
may, for Mr. Podonsky on medical screenings----
    Mr. Podonsky. Yes, sir.
    Mr. Larsen [continuing]. Yes, exams. I understand that you 
are established not only to improve the program management for 
health, safety, and security, but also to actually improve the 
health, safety, and security of DOE workers, and that includes 
a commitment to providing medical screening exams to former 
employees to identify adverse health effects that may have 
resulted from working at DOE facilities, and I understand that 
more than 600,000 people are eligible in the former worker 
program and may need screening.
    This element, the occupational health element, was 
appropriated about $16.4 million 2008, and the budget request 
is for $17.9 million. Just with that sheer number of people who 
are eligible to participate, over 600,000, is $17.9 million 
even enough? Even though it is an increase, is it even enough 
for 2009? And what can you tell us about being sure that folks 
who want screening are going to get screening?
    Mr. Podonsky. The program itself that you are referring to 
was actually started by the Department in 1996, and it is a 
consortium of universities and labor unions that are doing 
these medical screenings.
    And I will tell you, when your HSS was first set up, the 
former organization that became part of ours only had budgeted 
$12 million, but they were spending about $16 million. And that 
was in 2007. In 2008, we put it back up to $16 million again, 
finding monies within our own budget. For the 2009 budget--this 
is our first budget as HSS and we are not really sure what it 
is exactly that we need.
    And we have pulled the consortium of grantees together for 
the first time. We are meeting again with them in April because 
we are challenging them to help us understand how are they 
reaching out to get all these former workers. Because if you 
look over the history of the program, which is just 12 years, 
close to 600,000 former workers, only 50,000 have been 
screened. But when you do the math, it is about $2,500 per 
screening, and we know the cost is a lot less than that.
    So we are trying to get these organizations to get control 
of their infrastructure. We want to make sure that we are also 
able to reach out to more of the former workers in the 
population, identify who they are, because we also think that 
this is a great improvement over the way it has been run in the 
past.
    But more importantly, we want to make sure that the current 
workforce understands that this $25 billion corporation is 
taking care of its employees, past and present. We also want 
to, as I mentioned in my testimony, we want to make sure that 
we are married very closely with the Labor Department, with the 
Energy Employees Occupational Illness Compensation Program Act 
(EEOICPA) program, so that the former worker program can, in 
fact, feed into the EEOICPA program as appropriate. So these 
are areas that hadn't been done previously, but we plan to do 
that.
    So to your question, do we know that it is enough? We don't 
know for sure, but we feel pretty confident that we are moving 
in the right direction. We don't want to just keep on asking 
for more money. We want to make sure that we are utilizing it 
so we can, in fact, screen as many people as want to be 
screened.
    Mr. Larsen. Yes, good. Thank you.
    Thank you, Madam Chair.
    Ms. Tauscher. Thank you, Mr. Larsen.
    Mr. Turner of Ohio.
    Mr. Turner. Thank you, Madam Chair.
    Secretary Rispoli, when you look at the Department of 
Energy 2009 Congressional Budget Request, Environmental 
Management section--as you know, we have just recently 
discussed--there is a section in that that concerns my 
community. And I want to read a few provisions of the 
Congressional Budget Request, and then I will offer my 
questions to you.
    And, first, let me tell you that from the perspective of 
the City of Miamisburg, which is referenced in this report, I 
believe that the Department of Energy and the City of 
Miamisburg's partnership has been a model. The work that has 
been done together has been arm-in-arm and, I think, 
extraordinary. We are to the final throes of completion of this 
project, and certainly that is where everyone gets most 
concerned in trying to get the ball over the line so that we 
know that everyone has done the right thing.
    And in looking at the budget request, it references the 
Operable Unit-1 (OU-1) Historic Landfill, and it says a couple 
things. One, it says that it meets the requirements under the 
Comprehensive Environmental Response, Compensation and 
Liability Act (CERCLA) and has been accepted by U.S. 
Environmental Protection Agency (EPA) and Ohio EPA. And it 
acknowledges that in 2006, Congress directed exhumation of 
Operable Unit-1 within an appropriation not to exceed $30 
million, and an additional $44.5 million has been applied to 
the remediation at the site.
    When you get to the end of the Congressional Budget 
Request, it says the closure and turnover of 24 buildings and 
306 acres to Miamisburg Mound Community Improvement Corporation 
(MMCIC) were expected to be completed by the end of fiscal year 
2008. However, a recent correspondence from the Miamisburg 
Mound Community Improvement Corporation indicates that they 
will not accept the remaining land parcels. When final site 
cleanup of Operable Unit-1 is completed and the two remaining 
Records of Decision (RODs) are finalized, the complete 
operational management of the long-term stewardship mission at 
Miamisburg Closure Project will be transferred to DOE's Office 
of Legacy Management.
    There are a couple of conclusions in here which obviously I 
hope are not final conclusions, and I think that the community 
and DOE are continuing their conversations. But here are my two 
concerns.
    One, if the land is unable to be transferred to 
Miamisburg's Improvement Corporation and is transferred to the 
Office of Legacy Management, obviously there are going to be 
ongoing and recurring costs to DOE. And I would ask, one, did 
the cost-benefit analysis of DOE retaining that land in the 
Office Legacy Management be considered overall in the decision 
as to whether or not to execute final cleanup of OU-1? Was DOE 
currently advocating not to complete that cleanup?
    And the second thing is that the assumption that the 
landfill in its present state could be left to meet CERCLA 
requirements is based upon our current knowledge of what is 
there. And one of the problems with landfills, obviously, is 
that you don't necessarily know what, so you can't necessarily 
see it as you do tests and do parameters of assumptions. So my 
second aspect is that, you know, an understanding that DOE will 
provide a continuous review so that, you know, what we know now 
might change.
    And those really are my two questions about Miamisburg and 
the DOE's commitment to look at a cost-benefit analysis of 
final cleanup and then transfer to the Miamisburg Community 
Improvement Corporation. The second is an ongoing commitment 
if, as the information might change, that the cleanup standard 
might be impacted.
    Secretary Rispoli. Congressman, thank you. I know Mayor 
Church, and I know the members on his team very well. I think, 
as you state, I think we have a great relationship working with 
that community. And we are aware, obviously, of the concern 
they have over OU-1.
    One of the things we are doing to help with that is that 
the current discussions with the community would actually not 
transfer ownership of OU-1 to the community. And those 
discussions are ongoing now, and we think to a great extent 
that will alleviate their concern about OU-1, per se.
    When we talk about Legacy Management, I think it is 
important to recognize that all over the country when we turn 
over properties, whether we keep the property or whether we 
turn it over, if there is no other government landlord--like 
NNSA in certain cases here at their laboratories--Legacy 
Management takes the role of making sure that the records are 
maintained, that if there is any groundwater monitoring or 
ongoing monitoring to be protected that all of that happens. So 
at any site where there will be no other DOE landlord, Legacy 
Management will have a role at that site to make sure those 
functions are done.
    And then lastly, we did, as you know, commission a review 
of the cost to do what remains to be done with OU-1. We sent a 
report to Congress back in April of 2006 on OU-1 in response to 
congressional language, and we specifically mentioned in that 
report that we believed that the $30 million that Congress 
directed to clean up OU-1 would not be sufficient. And we 
proposed an excavation-based remedy with priorities such that--
and that was acceptable to MMCIC at that time--that approach 
was acceptable, understanding that we would do it 
incrementally, so that if the funds ran out, we would tackle 
the worst first.
    So out of the eight priority areas that were mutually 
agreed, we actually finished, I think it was, five of them, and 
we are into the sixth. And that is where we wound up out of 
money, despite putting another $4.5 million into it. So, I have 
asked for an independent estimate of what it would cost to do 
the remainder of those priorities that, all along, we knew 
might not ever get done and was documented in this report.
    And with that, I would expect we can do exactly as you 
suggest, and that is do a cost-benefit of the alternatives. Is 
it better to just go and do it for the money that we now 
believe it will cost, or will it be more effective----
    With all of that said, we want be sure that whatever we 
leave there is protective of the community. You know, that has 
got to be number one, is to be sure that the remedy is 
protective. And right now, we feel that we are on safe ground 
because, as you know, both the Ohio regulator and the EPA 
believe that what we have done to date is protective. I hope 
that answers your----
    Mr. Turner. A couple things, and first I want to thank Bob 
DeGrasse and Kari Bingen for their help in visiting the site 
and their work----
    Secretary Rispoli. Sure.
    Mr. Turner [continuing]. With you on this. Not transferring 
the facility does not eliminate the concern of the community; 
the community's concern would remain. And I know that you are 
aware that the community had made a concession early on as to 
what the standard of cleanup would be. That made a significant 
impact on DOE's bottom line for the other portions of the site, 
industrial versus residential.
    The concern that the community has with respect to 
proceeding is, what really is there? And as you are aware, 
every time that anything has been opened up, especially since 
this was not regulated landfill--these were just random 
disposals that were occurring--additional materials have been 
found that have been either of a greater concern or an 
indication that there is something worse there.
    And that is where the community's concern has been placed. 
If this is not cleaned up, this will be the only of the 
property that is not.
    And I appreciate your commitment to doing the cost-benefit 
analysis. I appreciate the commitment to continue to work with 
the community on looking at what the standards are for cleanup. 
And I know as you look to those cost assessments, one of the 
things that we are going to be looking at is, what assumptions 
do they take into place as to what is there; and how does that 
affect Ohio EPA's analysis of when they say that the facility 
can be left as it is.
    So, I am certain this is going to be an ongoing 
conversation. I appreciate your----
    Secretary Rispoli. Yes, sir. And I would be happy to work 
with you and your office as we go forward, as well as with 
Mayor Church. But I think we now have more information to go 
forward with that type of a decision.
    Mr. Turner. Excellent. And one more question.
    Mr. Podonsky, as you know, and as the chairwoman knows, 
since Madam Chair has been excellent on the issue of security 
for this committee, I wanted to ask you about the Design Basis 
Threat, what your current view is of the status of the Design 
Basis Threat, what additional reviews or issues or concerns you 
might have about the Design Basis Threat.
    Mr. Podonsky. Thank you, sir. The Design Basis Threat that 
the Department is currently in compliance with was the 2003 
Design Basis Threat. The 2005 Design Basis Threat that was 
signed out by our former Deputy Secretary, Clay Sell, who just 
recently departed, committed the Department to being in 
compliance by 2008.
    Without getting into classified information, we are taking 
another hard look at the expenditures that have been made on 
the Design Basis Threat, because it was predicated on 
intelligence information that is somewhat dated. And in March 
of last year, a year ago, I asked our Director of Intelligence 
to give us a site-specific analysis of threats against site by 
site as opposed to a generic threat statement that would advise 
us on Design Basis Threat. We did not get that from our 
Intelligence Office. I then wrote another letter this January, 
and copied my colleagues, and the three Under Secretaries, and 
the Deputy, getting a little more specific on what we need for 
this.
    My point is, we do need to reexamine where we are in the 
Design Basis Threat in terms of it is very costly and we have 
to balance the cost of physical security against the known 
threats that we have against our sites. Currently, we believe 
that our sites are well protected. The nuclear material and the 
other targets are well protected.
    But we need to examine whether or not to continue down the 
path of being concerned about composite adversaries, concerned 
about what the threat is truly. Because it keeps on changing, 
and we don't want to chase it with more dollars or more guards, 
gates, and guns, as we say.
    We do feel, again I want to state, we do feel that the 
Department's physical security is really quite adequate in a 
number of its sites, so we need to reexamine this. Our bigger 
concern lies with cyber security.
    Mr. Turner. Thank you.
    Thank you, Madam Chair.
    Ms. Tauscher. You are welcome, Mr. Turner.
    Mr. Franks of Arizona.
    Mr. Franks. Well, thank you, Madam Chair.
    You know, it is kind of ironic, I was going to ask a 
question about security, and probably somebody has already 
scooped me before I got back.
    Ms. Tauscher. No, I think that would be a good area to go 
into.
    Mr. Franks. Well, let me just start out by saying, General 
Smolen, I think that you have had just a heroic effort in 
trying to maintain our deterrent given all the challenges that 
you have.
    And I share the ranking member's concerns about the RRW, 
and I am concerned, of course, that if we defer the Reliable 
Replacement Warhead too long the Life Extension Programs will 
come to a point where you have to make some fairly unpleasant 
decisions when you have to testify as to being able to certify 
our deterrent. And, you know, you have the unenviable task of 
protecting, in a sense, our most critical defense asset, and 
that is a challenging thing to deal with. And I just want to go 
on record as saying that I think that the ranking member had a 
tremendous point.
    My question is related to cyber security. I am, first of 
all, very encouraged about your emphasis on it because while I 
feel like we have taken some pretty strong measures in that 
regard, some of the countries that we cooperate with may be at 
risk.
    And I would like to get, Mr. Tobey, your sense of what that 
risk is, and what the vulnerability represented is and what we 
should do to address this, especially in terms of, you know, 
our nonproliferation concerns from other countries that we are 
cooperating with and their risk to cyber security attacks--or 
cyber attacks--I guess that is a better way to say it.
    Mr. Tobey. I am sorry, sir, I want to make sure I fully 
understand the question. Are you referring to other states' 
cyber security and whether or not----
    Mr. Franks. Yes, I know that we have that challenge, as 
well. But it occurs to me that if I were looking at the system, 
I would be more afraid of people that we are working directly 
with that haven't reached the level of advancement that we have 
in protecting themselves against cyber security. They may have 
all the good intentions in the world, but if their systems 
aren't sufficiently developed, what--or am I just all wet?
    Mr. Tobey. No, I think, actually, you have raised a good 
and interesting question and one, frankly, that we have not 
spent a lot of time on. Our focus with respect to security 
improvements in other countries has largely been in other 
areas.
    But I think you have raised an interesting question and one 
that we should probably spend some time on. And, with your 
indulgence, is what I would like to do is go back and see what 
has been done, what might be done, and come back to you with an 
answer.
    [The information referred to can be found in the Appendix 
beginning on page 101.]
    Mr. Franks. That is great. Thank you.
    And thank you, Madam Chairman.
    Let me shift gears on you here and talk a little bit 
about--you know, I think my greatest concern, just personally--
I know everybody has the same concern, but you know, sometimes 
you have an emphasis that you can't get out of your head--is 
the whole notion of an Iran, or someone like that, gaining 
sufficient capability. Even if they don't have the ability to 
hit us with a missile--or even if they do, they know we have 
their address, and I think they are going to be reticent to do 
that--just gaining that technology that can be translated into, 
for lack of a better term I use this term, and I know it is 
technically incorrect, but a nuclear improvised explosive 
device (IED) that could be brought into this country and 
either--and I won't get into some of the thoughts, you know, to 
try to catalyze any further consideration on their part. But it 
just appears to me that that is a tremendous risk for us, and 
that some of your nuclear forensics capabilities might play a 
crucial role in helping us not only understand where we are, 
but how we can address, you know, where the potential 
weaknesses are or leaks are or--I just wonder.
    Perhaps I could point that to General Smolen first, and 
then Mr. Tobey if you are inclined, as well.
    General Smolen. Yes, sir. I think probably the expert that 
could help us best answer that question is our Associate 
Administrator for Emergency Operations. Retired Admiral Kroll 
does those sorts of things for the Department of Energy, and I 
think he would have a whole lot more specific information that 
he could give you with regard to what we are able to do in 
terms of detection and what our capabilities might be in terms 
of response.
    You may be aware that he and his team have been active in 
every major event from the Inauguration, to the Super Bowl, to 
assisting our allies and assisting the Chinese in working the 
Olympics. So I think we have a somewhat robust capability in 
terms of detection and response, but I share your concern. It 
is an area of grave concern for all of us, and we probably need 
to do better.
    Mr. Franks. Madam Chair, with your indulgence, I will just 
ask one more question----
    Ms. Tauscher. Certainly.
    Mr. Franks [continuing]. Related to, you know, without some 
of the plutonium production capability that we have had in the 
past, the National Aeronautics and Space Administration (NASA) 
has expressed some concerns that some of their space missions, 
their long-term space missions, they may not be able to power 
those missions effectively.
    And I know that DOE has talked about restarting the 
plutonium production at Idaho National Lab, but it looks like 
that has been shelved, at least to some degree. And I am 
wondering if DOE intends to resume any plutonium-238 
production, and if so, how long would that take to restart, and 
are NASA's concerns justified?
    General Smolen. Sir, can I take that for the record and get 
back to you? I don't know----
    Mr. Franks [continuing]. Questions we are getting good 
information back some time----
    Mr. Tobey. I think, if I understand correctly, and I admit 
this is not my area either, but that the Office of Nuclear 
Energy works on those issues. But, we can----
    General Smolen. We will take that for the record sir, and 
get back to you.
    [The information referred to can be found in the Appendix 
beginning on page 101.]
    Mr. Franks. Well, the irony is that, you know, I would hate 
to see NASA be dependent upon Russia for their plutonium 
supply. That would be a real twist. And, anyway, I thank all of 
you for what you do. You are that invisible front line of 
freedom, and if you succeed, maybe the rest of us will; if you 
fail, it is kind of a bad situation. Well, thank you.
    And thank you, Madam Chair.
    Ms. Tauscher. You are welcome, Mr. Franks.
    Mr. Podonsky, when HSS was established, it was structured 
that you were not responsible for any operational elements with 
one exception. Nevertheless, within your organization there 
appears to be an office responsible for the security of the DOE 
headquarters facilities, which would seem to represent a 
conflict of interest. That is an office charged with setting 
policy and providing oversight. It is also conducting 
operations that need to comply with those very policies.
    Does the Department have a plan to deal with this conflict?
    Mr. Podonsky. Yes, ma'am, and you are correct. We do 
promulgate policy for the Department, we do the oversight, we 
do the enforcement, but we should not actually have an 
operational element.
    It is not only a perceived conflict, it is a real conflict, 
as exemplified by we have an inspection coming up for the 
headquarters that my inspection team will be inspecting my 
operation, and they both report to me. Now, I have no question 
that they will do a good job, but nevertheless, there is a----
    Ms. Tauscher. If you do have a question, will you let us 
know?
    Mr. Podonsky. Yes, okay.
    The Department, actually, when HSS was created, the 
Secretary and the Deputy Secretary, we had plans that we worked 
out with the three Under Secretaries that the operational 
security of the headquarters would actually be transferred to 
the Management Administration (MA) Account, as the landlord. 
And in December of 2006 when that move was about to take place, 
I went to the Secretary and the Deputy Secretary and suggested 
that it not take place until the MA organization was equipped 
to take on those responsibilities; they had just gone through a 
number of Senior Executive Service (SES) retirements.
    But we do have a plan in place and, I think, with your 
question I am sure we should look at executing that sooner than 
later.
    Ms. Tauscher. Right. I appreciate that.
    General Smolen, with the W88 pit production capability now 
demonstrated, why any more production? And what are the minimum 
pit production requirements for Stockpile Surveillance.
    General Smolen. Ma'am, I believe that we have got in the 
budget a capacity to do six. I am not sure of the very specific 
number to give you. But we do require additional W88 pits in 
order to be able to accomplish Stockpile Surveillance over the 
next dozen years.
    Ms. Tauscher. Okay. Well, I think that question is a nice 
segue into the prospect of a future classified hearing. As Mr. 
Everett has pointed out, I think we have a number of different 
issues, and we will prevail upon you as much as we can to do 
that after we come back from the spring break.
    Gentlemen, we want to thank you for your time. We 
especially want to thank the tens of thousands of people that 
you represent--especially the people sitting right behind you--
that we know work very, very hard, are patriotic hardworking 
Americans that have worked for a very, very long time to make 
sure that we have the safest and most secure and certifiable 
stockpile.
    It is a big complex. It takes lots of people to make it 
work. And obviously we have continuing EM and health and safety 
concerns. And we have many challenges with the aging of the 
stockpile.
    But the committee wants to convey to you all our thanks and 
appreciation. And we hope that you will do that, send our 
thanks and appreciation to the many people that work for you.
    And this hearing is adjourned.
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 12, 2008

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 12, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T4781.001
    
    [GRAPHIC] [TIFF OMITTED] T4781.002
    
    [GRAPHIC] [TIFF OMITTED] T4781.003
    
    [GRAPHIC] [TIFF OMITTED] T4781.004
    
    [GRAPHIC] [TIFF OMITTED] T4781.005
    
    [GRAPHIC] [TIFF OMITTED] T4781.006
    
    [GRAPHIC] [TIFF OMITTED] T4781.007
    
    [GRAPHIC] [TIFF OMITTED] T4781.008
    
    [GRAPHIC] [TIFF OMITTED] T4781.009
    
    [GRAPHIC] [TIFF OMITTED] T4781.010
    
    [GRAPHIC] [TIFF OMITTED] T4781.011
    
    [GRAPHIC] [TIFF OMITTED] T4781.012
    
    [GRAPHIC] [TIFF OMITTED] T4781.013
    
    [GRAPHIC] [TIFF OMITTED] T4781.014
    
    [GRAPHIC] [TIFF OMITTED] T4781.015
    
    [GRAPHIC] [TIFF OMITTED] T4781.016
    
    [GRAPHIC] [TIFF OMITTED] T4781.017
    
    [GRAPHIC] [TIFF OMITTED] T4781.018
    
    [GRAPHIC] [TIFF OMITTED] T4781.019
    
    [GRAPHIC] [TIFF OMITTED] T4781.020
    
    [GRAPHIC] [TIFF OMITTED] T4781.021
    
    [GRAPHIC] [TIFF OMITTED] T4781.022
    
    [GRAPHIC] [TIFF OMITTED] T4781.023
    
    [GRAPHIC] [TIFF OMITTED] T4781.024
    
    [GRAPHIC] [TIFF OMITTED] T4781.025
    
    [GRAPHIC] [TIFF OMITTED] T4781.026
    
    [GRAPHIC] [TIFF OMITTED] T4781.027
    
    [GRAPHIC] [TIFF OMITTED] T4781.028
    
    [GRAPHIC] [TIFF OMITTED] T4781.029
    
    [GRAPHIC] [TIFF OMITTED] T4781.030
    
    [GRAPHIC] [TIFF OMITTED] T4781.031
    
    [GRAPHIC] [TIFF OMITTED] T4781.032
    
    [GRAPHIC] [TIFF OMITTED] T4781.033
    
    [GRAPHIC] [TIFF OMITTED] T4781.034
    
    [GRAPHIC] [TIFF OMITTED] T4781.035
    
    [GRAPHIC] [TIFF OMITTED] T4781.036
    
    [GRAPHIC] [TIFF OMITTED] T4781.037
    
    [GRAPHIC] [TIFF OMITTED] T4781.038
    
    [GRAPHIC] [TIFF OMITTED] T4781.039
    
    [GRAPHIC] [TIFF OMITTED] T4781.040
    
    [GRAPHIC] [TIFF OMITTED] T4781.041
    
    [GRAPHIC] [TIFF OMITTED] T4781.042
    
    [GRAPHIC] [TIFF OMITTED] T4781.043
    
    [GRAPHIC] [TIFF OMITTED] T4781.044
    
    [GRAPHIC] [TIFF OMITTED] T4781.045
    
    [GRAPHIC] [TIFF OMITTED] T4781.046
    
    [GRAPHIC] [TIFF OMITTED] T4781.047
    
    [GRAPHIC] [TIFF OMITTED] T4781.048
    
    [GRAPHIC] [TIFF OMITTED] T4781.049
    
    [GRAPHIC] [TIFF OMITTED] T4781.050
    
    [GRAPHIC] [TIFF OMITTED] T4781.051
    
    [GRAPHIC] [TIFF OMITTED] T4781.052
    
    [GRAPHIC] [TIFF OMITTED] T4781.053
    
    [GRAPHIC] [TIFF OMITTED] T4781.054
    
    [GRAPHIC] [TIFF OMITTED] T4781.055
    
    [GRAPHIC] [TIFF OMITTED] T4781.056
    
    [GRAPHIC] [TIFF OMITTED] T4781.057
    
    [GRAPHIC] [TIFF OMITTED] T4781.058
    
    [GRAPHIC] [TIFF OMITTED] T4781.059
    
    [GRAPHIC] [TIFF OMITTED] T4781.060
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 12, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T4781.061
    
    [GRAPHIC] [TIFF OMITTED] T4781.062
    
    [GRAPHIC] [TIFF OMITTED] T4781.063
    
    [GRAPHIC] [TIFF OMITTED] T4781.064
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 12, 2008

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. FRANKS

    Mr. Tobey. With respect to the work done by my organization, within 
the Office of Defense Nuclear Nonproliferation, the Material Protection 
Control and Accounting (MPC&A) program has worked with Russian nuclear 
sites to develop MPC&A systems with effective cyber security. This work 
also includes training on information security. These systems are 
generally not internet based and therefore, as designed, inherently 
more secure. [See page 24.]
    General Smolen. The Department of Energy (DOE) supplies 
radioisotope power systems (RPS) for the National Aeronautics and Space 
Administration's (NASA) space science and exploration missions and for 
national security applications for more than four decades. These unique 
power systems convert heat from the decay of plutonium-238 (Pu-238) 
into electric power and provide heat for missions over long periods of 
time under remote, harsh conditions. The inventory of domestic Pu-238, 
last made at the Savannah River Site in 1988, is nearly exhausted. DOE 
has a contract with Russia, the only international supplier of Pu-238, 
to purchase the remaining available inventory; like the United States, 
Russia ceased production of Pu-238 and would require investment to 
reestablish their own production capability.
    Relevant agencies are working together to evaluate the current 
status of potential Pu-238 production needs, issues, and costs. Based 
on NASA's current projected mission requirements, the remaining 
available inventory will be exhausted by 2015. The earliest that a 
production capability could be established based on proven processes is 
approximately seven years after receipt of capital acquisition funds. 
DOE continues to produce radioisotope power systems using existing 
infrastructure and the remaining Pu-238 fuel. [See page 26.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 12, 2008

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. TAUSCHER

    Ms. Tauscher. The House-approved FY 2008 defense authorization bill 
contains a provision establishing a congressionally-appointed 
commission to evaluate U.S. strategic posture for the future, including 
the role that nuclear weapons should play in the national security 
strategy. What key questions should the commission consider?
    General Smolen. The Commission should identify the basic principles 
for restoring a national consensus on strategic policy and, in 
particular, on the role and mission of U.S. nuclear weapons in the 
post-Cold War era. These principles would help to guide the next 
administration's review of its nuclear posture. With regard to the 
mission of the National Nuclear Security Administration, the Commission 
should examine the merits of a broad spectrum of warhead life extension 
strategies, including including warhead refurbishment, warhead 
component reuse, and warhead replacement, for managing the risks 
inherent in assuring a safe and reliable nuclear stockpile for the 
foreseeable future without nuclear testing. In addition, the Commission 
should offer its views regarding transformation of the large, 
inefficient and deteriorating nuclear weapons complex that we inherited 
from the Cold War to a modern national security enterprise able to 
address a broad range of national security issues beyond its core 
nuclear weapons mission.
    Ms. Tauscher. Does the NNSA science-based Stockpile Stewardship 
Program (SSP) provide all the tools needed by NNSA and the weapons 
laboratory directors to annually certify the nation's nuclear weapons 
as safe, secure and reliable? What are the gaps, if any?
    General Smolen. The Stockpile Stewardship Program (SSP) has 
assembled world leading tools to resolve uncertainties in our 
predictive models for nuclear weapons performance. Most of the major 
experimental scientific facilities are complete or will be complete 
very soon, plus the Advanced Strategic Computing Program has developed 
significant computational tools. This program in concert with Directed 
Stockpile Work has already been successful in; making quantitative 
statements on pit aging, closing significant finding investigations, 
annually assess the nuclear stockpile, and in enabling life extension 
programs. NNSA has a plan to use these tools, both computational and 
experimental, to resolve our key uncertainties that did not need to be 
understood during testing, and remained after the testing moratorium. 
Anticipated future needs include continued increases in our 
computational capability and capacity computing and improved physics 
models. Unanticipated needs may arise from the planned work on our 
major experimental facilities (NIF, Z, Omega, DARHT and LANSCE) over 
the next five years. However, as we continue to move further and 
further away from the period of full scale nuclear testing and as the 
stockpile ages, the level of uncertainty in reliability will grow over 
time which may increase the demands on the SSP to develop new and 
innovative ways to certify the legacy stockpile.
    Ms. Tauscher. Recent testimony by military officials and others has 
suggested that continuing to extend the life of our current stockpile 
is not sustainable over the long term. Does NNSA currently assess the 
SSP as capable of enabling annual assessment and certification?
    General Smolen. The present and planned stockpile stewardship 
program of record is capable of enabling annual assessments and 
certification. These assessments have clearly identified issues with 
the stockpile that motivate life extension programs, and other 
modifications to systems. Many of these issues are identified through 
surveillance or by the application of modern tools. As issues arise 
where adequate tools and capabilities do not exist, the research and 
development part of the SSP is adjusted to provide those needs in a 
timely fashion. To date, the stockpile stewardship program has 
successfully extended the lifetime of the stockpile through a number of 
Directed Stockpile Work programs, including the closure of surveillance 
driven Significant Finding Investigations. The annual assessment 
letters by the Laboratory Directors document issues that we are 
addressing.
    Ms. Tauscher. How do you characterize your confidence in the 
nuclear stockpile? Please describe any risks to the stockpile that 
might erode that confidence over time.
    General Smolen. [The information referred to is classified and 
retained in the committee files.]
    Ms. Tauscher. Mindful that we are in open session, please give 
specific examples of the limits the Stewardship Program will confront 
in the coming years. Please indicate the time lines involved with these 
limitations (e.g., when they will be manifest).
    General Smolen. In the future, we would predict stewardship 
challenges similar to those we have already seen--aging components and 
materials, unavailable materials; deviations from designs and new 
results from experiments/modeling. Additionally, we will anticipate 
modifications to keep the stockpile current within Department of 
Defense systems, increased requirements for safety and security, and we 
have to have a responsive infrastructure to meet any changes in the 
geopolitical environment. As yet, we have identified no limits where 
stockpile stewardship would fail, however, we are developing increased 
understanding of aging and other phenomena to be sure that the 
stewardship program can identify issues before they could become a 
limiting factor. Significant Life Extension Programs or preferably 
weapon modernization in concert with a strong science, technology and 
engineering base, is the best course to ensure no limitations are 
reached.
    Ms. Tauscher. What steps other than RRW can NNSA pursue to enhance 
the safety, security and reliability of the current stockpile?
    General Smolen. Consistent with the lifetime assessment concerns 
presented in the Life Extension Options process and as part of future 
life extension program (LEP) concept and feasibility studies outlined 
in the Production and Planning Directive, the NNSA will evaluate 
opportunities to enhance the safety and security of existing weapons in 
the current stockpile. A subset of the technologies that were to be 
included in RRW, as well as other advances in surety technology, could 
be retrofitted into weapons during the LEP process. Possibilities 
include using more modern stronglinks to prevent unauthorized signals 
from getting to the fireset, using fiber-optic cables to eliminate 
electro-static discharge or lightning concerns, or even replacing pits 
which use sensitive conventional high explosive with pits from retired 
systems that use safer insensitive high explosives. The benefits of 
these enhancements must be weighed against impacts on associated 
Department of Defense (DOD) weapon delivery systems (i.e., added 
weight, increased volume, or reduced operational performance) as part 
of the feasibility studies.
    The RRW program baseline included several enhanced, modern safety 
and security features. Attempting to incorporate these RRW options into 
legacy weapons could compromise the certification basis and potentially 
raise concerns about the performance and reliability of the modified 
legacy warhead configurations. This approach has risks, and the need 
for nuclear testing to validate significant design changes to legacy 
nuclear packages and recertify these weapons cannot be ruled out at 
this time. The Advanced Certification Campaign is working to reduce 
those risks to some degree. This program seeks to understand in a 
quantitatively rigorous way, the design ties between a modified or 
untested design and the tested design database. Without the added 
margin afforded by RRW, added uncertainty in reliability assessments 
caused by design changes limits the ability of the Stockpile 
Stewardship tools to certify new features added to old weapons.
    Ms. Tauscher. Are there limits on the Life Extension Programs in 
terms of their scope and ability to meet military requirements? Are 
these technical, operational, regulatory, statutory, or a combination? 
Please give examples.
    General Smolen. A combination of constraints imposes limits on what 
can be accomplished through Life Extension Programs (LEPs). The current 
approach to legacy stockpile sustainment through LEPs is focused on 
minimum technical excursions from the original design. A fundamental 
objective of the LEP approach is to meet the original military 
characteristics (requirements) that were established with the DOD. Most 
of the legacy warheads were highly optimized systems, trading margin 
for more yield and reduced weight, and were all validated by nuclear 
testing.
    LEPs are becoming increasingly more difficult and costly in order 
to replicate materials and outdated or non-operational processes and 
technologies that were used to meet original warhead specifications. In 
some instances, materials or processes have become obsolete because of 
their hazardous nature and are no longer available in industry due to 
increased regulatory constraints and cost. Each refurbishment 
introduces changes that take the designs further from the tested 
configurations, increasing uncertainty in weapon reliability. As these 
designs continue to change, NNSA's ability to ensure confidence in the 
legacy stockpile's safety and reliability over the long-term, without 
underground nuclear testing, will become difficult.
    Ms. Tauscher. What is the status of the study NNSA has been 
conducting for the Air Force on the B61 warhead life extension?
    General Smolen. On March 25, 2008, the Nuclear Weapons Council 
(NWC) approved a joint Air Force/National Nuclear Security 
Administration (NNSA) study, to be completed within 90 days, on whether 
to proceed with a comprehensive nuclear and non-nuclear Life Extension 
Program (LEP) of the B61 warhead. Prior to the NWC decision, the NNSA 
program-of-record was for a limited non-nuclear refurbishment of the 
B61 warhead. The NWC also requested the Air Force and NNSA to begin 
planning for entry into the Phase 6.2/6.2A study no later than 
September 30, 2008. Consistent with the requested joint study and in 
close cooperation with the Air Force, NNSA efforts are currently 
focused on determining the Phase 6.2/6.2A study scope, updating user 
requirements, and estimating the complete study cost. Complementing the 
joint B61 LEP study, NNSA has begun a 60 day technical risk assessment 
study to investigate the potential reuse of an alternate pit (this 
candidate was in the stockpile as of December 2, 2002). The pit reuse 
assessment study will be completed with Lawrence Livermore National 
Laboratory in order to maximize design flexibility, with an emphasis on 
additional safety, security and use control features.
    Ms. Tauscher. What is the current NNSA plan for maintaining the 
capability offered by the B61?
    General Smolen. NNSA has been addressing B61 performance, aging, 
and reliability concerns as they arise through approved bomb 
alterations (Alts). Currently, NNSA is in Phase 6.6 Full-Scale 
Production for a series of alterations, including a canned subassembly 
Life Extension Program (LEP) on the B61-7/11 (Alt 357) and a spin 
rocket motor refurbishment on the B61-7/11 (Alts 358/359) and B61-3/4/
10 (Alt 356).
    NNSA planned to continue this approach with an arming and fuzing 
alteration to address radar performance and neutron generator end of 
life concerns which was included in the Fiscal Year 2009 President's 
Budget. Recently, the NNSA, in partnership with the Air Force, has 
reconsidered this approach to B61 sustainment because of the associated 
life cycle costs and timeliness of fielding multiple alterations over 
the next decade. The new approach is to perform a comprehensive LEP 
addressing both non-nuclear and nuclear refurbishment. The life 
extension program would also include improvements in safety and use 
control, as well as possible consolidation of the B61 bomb family to 
reduce future sustainment costs. The Nuclear Weapon Council approved 
this approach on March 25, 2008 with the direction to begin a B61 LEP 
Feasibility/Design Definition/Cost Study (Phase 6.2/6.2A) study no 
later than September 30, 2008. NNSA is also performing an alternate pit 
reuse study to evaluate the technical feasibility of reusing another 
pit in the B61 LEP. NWC tasking allows the scope of the Phase 6.2/6.2A 
study to include analysis of an alternate pit if Congressional support 
allows.
    Ms. Tauscher. The FY 2008 National Defense Authorization Act 
directed NNSA to examine the feasibility, advantages and disadvantages 
of reusing existing pits in the RRW program. What is the status of this 
assessment? Will the NNSA have the report to Congress by this summer, 
as required by the NDAA?
    General Smolen. A draft of a report detailing the results of this 
assessment is in coordination with the appropriate Department of Energy 
(DOE) and Department of Defense (DOD) agencies. The Nuclear Weapons 
Council (NWC) consultation process has been initiated for this report 
in accordance with established procedures and timelines. NNSA expects 
to deliver this coordinated report to Congress by July 28, 2008.
    Ms. Tauscher. The FY 2009 budget request includes $10 million for 
RRW, which the budget justification materials describe as funding 
``maturation of RRW design concepts to address questions raised by the 
JASONs review of RRW feasibility.''
    What progress toward conclusion of the ``Phase 2a'' (design and 
cost) study proposed in the FY 2008 request will the NNSA be able to 
achieve with the FY 2009 request?
    General Smolen. The FY 2009 budget request of $10 million will 
permit maturation of some specific design features to address specific 
design certification issues raised by the JASON review. Specific design 
work would include maturation of safety and security features, some 
fabrication processes and material selection, including contingency 
design using more traditional fabrication processes. Additionally, some 
peer review of the proposed design may occur. No work on the 
development of the joint schedule or cost estimate would be done.
    Ms. Tauscher. The FY 2009 budget request includes $10 million for 
RRW, which the budget justification materials describe as funding 
``maturation of RRW design concepts to address questions raised by the 
JASONs review of RRW feasibility.''
    What resources would be necessary to complete the RRW Phase 2a cost 
and design study?
    General Smolen. The purpose of the joint Department of Defense and 
National Nuclear Security Administration Reliable Replacement Warhead 
Phase 2A Design Definition and Cost Study is to develop the detailed 
cost, scope and schedule baseline. Both organizations require funding 
in order to complete the joint study. NNSA requires $65 million to 
complete its portion of the activities of the joint study.
    Ms. Tauscher. The FY 2009 budget request includes $10 million for 
RRW, which the budget justification materials describe as funding 
``maturation of RRW design concepts to address questions raised by the 
JASONs review of RRW feasibility.''
    Describe the new Advanced Certification program and how it is 
different from other Science and Engineering Campaign activities 
intended to develop the scientific and engineering capabilities to 
support certification without testing?
    General Smolen. The Science and Engineering Campaign activities 
provide better tools, models and technologies which are the enablers of 
our assessment and certification processes that are conducted under 
Directed Stockpile Work (DSW). The Advanced Certification sub-program 
is developing the methodologies needed to support scientifically 
rigorous assessment and certification process, and is obviously linked 
in its goals, but different in its approach. As constructed, the 
advanced certification sub-program contains the following examples of 
activities that were not previously included in the campaigns:

        (i) Generation of a strategic plan for certification and 
        assessments based on the planned improvements in our Stockpile 
        Stewardship Program tools, models and technologies;

        (ii) Development of rigorous definitions of underground test 
        near neighbors; and

        (iii) Experiments and calculations to determine and resolve 
        certification issues of surety features prior to their 
        inclusion in DSW activities.

    A thorough description of the work in the advanced certification 
campaign is contained in the report submitted to Congress in May 2008.
    Ms. Tauscher. The NNSA identified its Preferred Alternative for 
Complex Transformation in a Supplemental Programmatic Environmental 
Impact Statement (SPEIS) released last month. The Preferred Alternative 
identified in the SPEIS refines the Complex 2030 report NNSA submitted 
to Congress a little more than a year ago, which like the SPEIS noted 
that NNSA expects to maintain a level Directed Stockpile Work budget. 
NNSA has said it will rely on initiatives such as facility and staffing 
reductions and new business practices to pay for transformation. NNSA 
has stated Transformation must take place with or without RRW, but has 
stated that RRW would enhance the responsiveness of the complex. NNSA 
has stated that the cost of RRW could be offset by fewer planned Life 
Extension Programs (LEPs) and deeper reductions in the size of the 
stockpile.
    What legacy weapons arc candidates for near term reduction or 
elimination?
    General Smolen. The DOD, in conjunction with the NNSA, must sustain 
the nuclear weapons stockpile as directed in the President's annual 
Nuclear Weapons Stockpile Plan (NWSP). In this regard, the DOD is the 
lead agency for definition of the nuclear weapon stockpile size and mix 
of weapon types necessary to meet war planning, logistics, and 
maintenance requirements to meet the NWSP. Therefore, the DOD would be 
the appropriate agency to identify any legacy warheads that can be 
reduced or eliminated in the near term.
    Ms. Tauscher. The NNSA identified its Preferred Alternative for 
Complex Transformation in a Supplemental Programmatic Environmental 
Impact Statement (SPEIS) released last month. The Preferred Alternative 
identified in the SPEIS refines the Complex 2030 report NNSA submitted 
to Congress a little more than a year ago, which like the SPEIS noted 
that NNSA expects to maintain a level Directed Stockpile Work budget. 
NNSA has said it will rely on initiatives such as facility and staffing 
reductions and new business practices to pay for transformation. NNSA 
has stated Transformation must take place with or without RRW, but has 
stated that RRW would enhance the responsiveness of the complex. NNSA 
has stated that the cost of RRW could be offset by fewer planned Life 
Extension Programs (LEPs) and deeper reductions in the size of the 
stockpile.
    What confidence do you have that cost savings from facility and 
staffing reductions, business process improvements, and materials 
consolidation will adequately pay for Transformation? If such 
reductions will pay only in part for transformation, from where will 
NNSA draw the remainder of the required funds?
    General Smolen. The preferred alternative for Complex 
Transformation will offer the lowest overall cost and risk in the 
longer term. We propose to implement transformation within our existing 
budget projections, assuming we maintain a weapons budget adjusted for 
inflation and that we are allowed to re-invest the savings we achieve, 
rather than applying them to other budget shortfalls.
    We propose to pay for transformation through a combination of the 
following:

        <bullet>  Infrastructure savings through footprint reductions, 
        replacement of buildings that have been retained long past 
        their economic lifetime, and updated cost sharing models;

        <bullet>  Reduced overhead costs through contract reforms, 
        improved risk management strategies, greater business practice 
        uniformity, improvements in product assurance processes, and 
        commodity purchase savings through a supply chain management 
        center;

        <bullet>  Reductions in security costs enabled by Special 
        Nuclear Materials (SNM) consolidation and use of modern, 
        hardened facilities;

        <bullet>  Savings from mission consolidations and elimination 
        of redundant experimental facilities;

        <bullet>  Collaborating with DOD on alternative stockpile 
        augmentation strategies;

        <bullet>  Reduced overall staffing supporting weapons 
        activities through natural attrition and transition to other 
        national security missions; and

        <bullet>  Optimization of a reduced federal staff enabled by 
        contract reform and improved line oversight of contractor 
        assurance systems.

    In short, Complex Transformation forces us to reform our current 
business practices and consolidate the nuclear weapons enterprise. Our 
objective is to retain mission work (e.g., Directed Stockpile Work and 
Campaigns) at as high a level as possible while we cut overhead costs. 
If these cost savings are not available to pay for transformation, we 
will need to re-align all existing work to pay for essential 
transformation actions. The Department of Defense Cost Analysis 
Improvement Group (DOD/CAIG) completed a recent analysis of our 
modernization plans and estimated that it could be completed with a 5% 
adjustment to our existing funding plan.
    Ms. Tauscher. The NNSA identified its Preferred Alternative for 
Complex Transformation in a Supplemental Programmatic Environmental 
Impact Statement (SPEIS) released last month. The Preferred Alternative 
identified in the SPEIS refines the Complex 2030 report NNSA submitted 
to Congress a little more than a year ago, which like the SPEIS noted 
that NNSA expects to maintain a level Directed Stockpile Work budget. 
NNSA has said it will rely on initiatives such as facility and staffing 
reductions and new business practices to pay for transformation. NNSA 
has stated Transformation must take place with or without RRW, but has 
stated that RRW would enhance the responsiveness of the complex. NNSA 
has stated that the cost of RRW could be offset by fewer planned Life 
Extension Programs (LEPs) and deeper reductions in the size of the 
stockpile.
    The SPEIS makes plain that much complex transformation is necessary 
regardless of what happens with RRW. What elements of complex 
transformation are tied to RRW?
    General Smolen. Complex Transformation must take place with or 
without RRW. While we are meeting safety, security, and basic DOD 
requirements today, the present Complex is unsustainable. Special 
nuclear materials (SNM) are present at more sites than necessary. In a 
post 9/11 world, security has been enhanced and SNM is becoming more 
and more expensive to secure. Many old facilities support a large Cold 
War-era stockpile no longer necessary or affordable. Without 
transformation, increasing funds will be required to secure a greater 
perimeter than needed, maintain more square footage than is efficient, 
and sustain out-dated facilities well-past their economic lifetime.
    If the RRW strategy is approved by a future administration and 
Congress, the RRW design concepts would affect complex transformation 
in several ways. First of all, the RRW concepts employ fewer exotic and 
hazardous materials than the legacy stockpile. If the LEP strategy is 
pursued, processes involving such hazardous materials as beryllium and 
conventional high explosives, among others, would have to be continued 
or re-established as the components in the legacy weapons require 
remanufacture. Secondly, introduction of improved surety features, 
including insensitive high explosives and fire-resistant pits, will 
lead to improvements in the efficiency and responsiveness of the 
production plants compared to an LEP-only approach.
    This does not mean that we need fewer production facilities or that 
they would be significantly smaller in square footage because of RRW. 
However, we will be more efficient, responsive, and environmentally-
sensitive using an RRW strategy.
    In addition, RRW would likely enable a significantly reduced 
stockpile by reducing the need for ``hedge'' warheads.
    Ms. Tauscher. The FY 2009 budget request includes $77.4 million for 
Transformation Disposition. How does NNSA plan to coordinate efforts 
under the new Transformation Disposition program with the Office of 
Environmental Management? Do NNSA and EM have a plan for coordination 
of D&D and cleanup activities at NNSA sites?
    General Smolen. Transformation Disposition (TD) is the principal 
funding source to achieve footprint reduction within the National 
Nuclear Security Administration (NNSA). The TD program has committed to 
eliminating 5,000,000 gross square feet through transfer, sale, or 
demolition by FY2017 and it is anticipated that a portion of the TD 
funding viill be used to deactivate and prepare process-contaminated 
facilities for transfer to the Office of Environmental Management (EM) 
and final disposition. DOE currently uses the transfer process in DOE 
Order 430.1B, Real Property Asset Management, which outlines the 
acceptance criteria for transferring facilities from one DOE program to 
another. The NNSA and EM are in the coordination phase on what process 
contaminated excess facilities meet acceptance criteria for transfer.
    Ms. Tauscher. Are the design specifications for the Chemistry and 
Metallurgy Research Replacement (CMRR) facility or the Uranium 
Processing Facility (UPF) facility dependent on decisions relating to 
the long-term stewardship of specific stockpile weapons? To the extent 
they are, how does the NNSA intend to account for these dependencies 
while moving forward with design of both the CMRR and the UPF? 
Specifically, would the design of UPF change substantially if the 
secondary components of legacy weapons could be reused, at least in 
part?
    General Smolen. Complex Transformation must take place regardless 
of the size or composition of the future stockpile. For the range of 
future stockpiles that NNSA and DOD contemplate, maintaining required 
capabilities has a greater impact on the minimum size of our facilities 
than throughput capacity. The following discussion relates to the 
Preferred Alternative in our ongoing National Environmental Policy Act 
actions.
    UPF: The design considerations that drive the configuration of the 
UPF relate primarily to its capability requirements, recognizing that 
UPF capabilities support weapons production fabrication efforts and 
other programs, including dismantlements, surveillance, certification, 
uranium blend-down for non-proliferation reasons, and the supply of 
highly enriched uranium for naval and research reactors. The 
prospective footprints for a UPF that would support the current 
stockpile versus the size for a UPF that fabricated only one weapon per 
year differ by only a few percent. As for the composition of the 
stockpile, the design of UPF would not be significantly affected by the 
selection of legacy systems, new weapons designs, a combination of the 
two, or most contemplated secondary reuse scenarios. The reuse 
scenarios that would result in significant size reductions in UPF would 
require that the hypothetical future stockpile be composed entirely of 
reused secondaries; however, these scenarios are not considered viable 
national security alternatives because no future production capability 
would be available.
    CMRR: CMRR would be part of an integrated set of facilities at Los 
Alamos National Laboratory (LANL) to assure continuity of a plutonium 
capability for the nation, which includes pit fabrication, pit 
surveillance, and pit certification as well as non-defense programs 
actinide research, development and production. These facilities at LANL 
would be able to support the current pit production mission need, which 
is continuity of capability, and the longer-term need for a modest pit 
production rate, where the pits could be legacy designs, new designs, 
or a mixture of the two.
    Based on the facts above, NNSA is confident that many aspects of 
Complex Transformation can proceed while stockpile requirements 
continue to be refined. Proceeding apace with the two projects' designs 
avoids delays, whose collective delay costs and lost opportunity 
savings run in the hundreds of millions of dollars per year.
    Aside from Complex Transformation, design specifications for both 
CMRR and UPF are also intended to improve nuclear safety beyond what is 
possible in the current facilities. The need for such safety 
improvements has been repeatedly advised by the Defense Nuclear 
Facilities Safety Board as noted in their Eighteenth Annual Report to 
Congress (February 2008).
    Ms. Tauscher. Los Alamos National Lab (LANL) continued to 
experience security breaches over the past year, despite a new 
contracting team. What steps has NNSA taken to address security at 
LANL? What steps have you taken with the management and operations 
(M&O) contractor to improve security? What steps has the contractor 
taken?
    General Smolen. While we continue to be concerned with the 
frequency of security incidents involving classified materials, we 
believe that Los Alamos National Security LLC (LANS), the new 
contractor for the laboratory, is making significant security 
improvements at Los Alamos. In the year since the Secretary issued his 
Compliance Order (CO) regarding classified material protection to LANS 
pursuant to 10 C.F.R. Part 824, LANS has made substantial progress 
towards completing all 14 actions required by the Compliance Order. All 
14 requirements are enforceable under 10 C.F.R. 824 with the potential 
for fines of up to $100,000 per day per requirement.
    As part of its effort to satisfy the Compliance Order, LANS 
developed an additional comprehensive corrective plan, ``Security 
Compliance Integrated Corrective Action Plan'' (SCICAP). The SCICAP 
contains 27 activities to improve security plans and procedures, 
security cultural and training, and the self-assessment program for 
classified material protection. LANS has reached back to the four 
entities that are its members to obtain security and management 
expertise in order to develop a high quality plan. While these 
improvements cannot guarantee that LANS will not have additional 
incidents, they indicate that LANS is improving its security 
procedures. In addition, under the new performance fee structure for 
LANS' contract it is evaluated on its security performance and award 
fees can be used to hold LANS accountable for its performance in this 
critical area.
    Preventing additional security violations at LANL rests on LANS' 
ability to sustain the improvements it has made on strong federal 
oversight of the LANS' security program. NNSA has recently selected a 
new federal security manager for LANL and it will be providing 
additional resources to the new manager to ensure he has the staff and 
technical assistance necessary to provide effective oversight. The 
Department's Office of Independent Oversight will conduct a 
comprehensive inspection of both the Federal office and the LANS 
starting in August 2008. NNSA will be paying close attention to this 
inspection and will provide additional assistance to address any issues 
or concerns identified by the inspection team.
    Ms. Tauscher. The FY 2008 National Defense Authorization Act 
requires the GAO and then the NNSA to examine alternatives for managing 
protective forces at all NNSA and Department sites with special nuclear 
material. Has the GAO contacted the Department about this review? Is 
NNSA Defense Nuclear Security working with the Department to conduct a 
review?
    General Smolen. Mr. Jonathan Gill, Assistant Director, Government 
Accountability Office (GAO) conducted an entrance briefing concerning 
the FY 2008 National Defense Authorization Act (DOE Protective Force 
Options: GAO Engagement 360953) on June 10, 2008. In August 2007, the 
National Nuclear Security Administration (NNSA), Office of Defense 
Nuclear Security was tasked by the NNSA Administrator to conduct an 
analysis and comparative survey examining several options for 
performing Protective Force duties at NNSA sites, including the use of 
an enterprise-wide contractor, Federalization of existing security 
employees, or a combination of the two. The ``Comparative Analysis of 
Contractor and Federal Protective Forces at Fixed Sites'' also 
identified benefits of standardization across the NNSA Complex, 
including reduction of preparation time required for response to 
potential work stoppages resulting from strikes. DOE is awaiting 
completion of the GAO study (approximately March 2009) in accordance 
with the FY 2008 National Defense Authorization Act prior to submitting 
a report within the allotted 90 days to the Committee on Armed Services 
of the Senate and the Committee on Armed Services of the House of 
Representatives.
    Ms. Tauscher. The FY 2008 NDAA also directs NNSA to conduct an 
assessment of the physical and cyber security risks posed to the 
nuclear weapons complex and the security technologies employed against 
those threats, and prepare a report identifying the manner in which it 
prioritizes investments in physical and cyber security of the weapons 
complex. The report would be included in the annual Future Years 
Nuclear Security Plan (FYNSP). Is the NNSA working on this assessment 
and report?
    General Smolen. NNSA is in the process of conducting a 
comprehensive assessment aligned with Congressional direction contained 
in the 2008 NDAA. The assessments and resulting report, covering both 
physical and cyber security, will be fully coordinated with the 
Department, to include the Health, Safety, and Security (HSS) 
organization. To address the physical security threats, NA-70 has 
tasked Sandia National Laboratories (SNL) to conduct a rigorous 
assessment of the threats facing the Nuclear Weapons Complex (NWC) and 
how NNSA utilizes both existing and emerging technologies to meet our 
physical security challenges. The SNL report, due for completion at the 
end of CY 2008, will include the following major elements:

        <bullet>  Provide a description of technologies deployed at 
        each site that address physical security threats.

        <bullet>  Identify the methods used by NNSA to establish 
        investment priorities.

        <bullet>  Provide a detailed description of how the funds 
        identified in each program element for each fiscal year of the 
        5 year plan will help carry out the plan.

        <bullet>  Identify the strengths and weaknesses of the current 
        NNSA process and provided recommendations for improving this 
        process.

    To address the cyber security threats, the NNSA Office of the Chief 
Information Officer (OCIO) has tasked our internal red team to conduct 
a rigorous assessment of the cyber threats facing the Nuclear Weapons 
Complex. The assessment will focus on how NNSA can implement existing 
and emerging cyber security technologies to protect and defend the 
technology infrastructure. The team report will be due to the OCIO at 
the end of CY 2008. The report will include the following major 
elements:

        <bullet>  Cyber Security Policy Implementation

        <bullet>  Technical and Management Controls Implementation

        <bullet>  Network Operations

        <bullet>  Web Services

        <bullet>  Desktop Configuration and Boundary Protection

        <bullet>  Wireless Services

    Ms. Tauscher. NNSA plans for fissile materials disposition have 
slowed in recent years, first as a liability dispute between the U.S. 
and Russia delayed work, and more recently as Congress expressed 
reservations about proceeding with construction of the MOX Fuel 
Fabrication Facility at the Savannah River Site (SRS). Most recently, 
the FY 2008 Consolidated Appropriations Act reduced funding for the MOX 
facility and transferred funding for the facility to the Office of 
Nuclear Energy. However, a February 22, 2008 memo to Secretary Bodman 
from the DOE General Counsel states that the Secretary is not legally 
able to transfer management of the project out of the NNSA. That memo 
recommends an ``Economy Act'' to formalize continued management of the 
MOX project by NNSA, with funding from Nuclear Energy.
    Has NNSA worked out a formal arrangement with the Office of Nuclear 
Energy?
    Mr. Tobey. Yes, the DOE Office of Nuclear Energy and the NNSA 
Office of Defense Nuclear Nonproliferation entered into a Memorandum of 
Agreement under the Economy Act whereby the NNSA Office of Fissile 
Materials Disposition manages the project on behalf of the Office of 
Nuclear Energy while the Office of the General Counsel analyzes whether 
the Consolidated Appropriations Act, 2008, effectuated a transfer of 
program responsibility for this project.
    Ms. Tauscher. NNSA plans for fissile materials disposition have 
slowed in recent years, first as a liability dispute between the U.S. 
and Russia delayed work, and more recently as Congress expressed 
reservations about proceeding with construction of the MOX Fuel 
Fabrication Facility at the Savannah River Site (SRS). Most recently, 
the FY 2008 Consolidated Appropriations Act reduced funding for the MOX 
facility and transferred funding for the facility to the Office of 
Nuclear Energy. However, a February 22, 2008 memo to Secretary Bodman 
from the DOE General Counsel states that the Secretary is not legally 
able to transfer management of the project out of the NNSA. That memo 
recommends an ``Economy Act'' to formalize continued management of the 
MOX project by NNSA, with funding from Nuclear Energy.
    What cost increases and schedule delays will result from the cuts 
to the project contained in the FY 2008 Consolidated Appropriations 
Act--both in direct appropriations and rescinded unobligated balances?
    Mr. Tobey. DOE is currently analyzing the MOX cost and schedule 
impacts that will result from the $217 million funding reduction to the 
MOX project (this reduction includes $100 million cut from the budget 
request, the rescission of $115 million and a $2 million reduction in 
Other Project Costs) in the Consolidated Appropriations Act, 2008.
    Ms. Tauscher. NNSA plans for fissile materials disposition have 
slowed in recent years, first as a liability dispute between the U.S. 
and Russia delayed work, and more recently as Congress expressed 
reservations about proceeding with construction of the MOX Fuel 
Fabrication Facility at the Savannah River Site (SRS). Most recently, 
the FY 2008 Consolidated Appropriations Act reduced funding for the MOX 
facility and transferred funding for the facility to the Office of 
Nuclear Energy. However, a February 22, 2008 memo to Secretary Bodman 
from the DOE General Counsel states that the Secretary is not legally 
able to transfer management of the project out of the NNSA. That memo 
recommends an ``Economy Act'' to formalize continued management of the 
MOX project by NNSA, with funding from Nuclear Energy.
    What is the current status of construction of the MOX facility?
    Mr. Tobey. Currently, the construction of the MOX facility 
continues to proceed on schedule and within budget. The building 
foundation of the MOX facility is 70% complete and construction of 
several ancillary support buildings has been completed. In mid-May, the 
MOX facility project achieved 500,000 work hours without a lost time 
accident.
    Ms. Tauscher. How much more does NNSA need to do to secure and 
reduce all known and unsecured weapons-grade nuclear and radiological 
material around the world, and what is the cost of the remaining effort 
in this area? Please also submit something for the record on this, in 
classified form if necessary. What can NNSA do to expand and strengthen 
the Global Threat Reduction Initiative (GTRI) and the International 
Nuclear Materials Protection & Cooperation (MPC&A) programs?
    Mr. Tobey. Within the Global Threat Reduction Initiative's (GTRI) 
mission area, there is an estimated five (5) metric tons of highly 
enriched uranium (HEU) and separated plutonium within civilian programs 
worldwide, of which 43%, or about 2.1 metric tons, has already been 
removed, leaving approximately 2.9 metric tons of material to be 
removed in the future. There are also approximately 3,300 high risk 
radioactive sources in other-than-high income countries that we believe 
need to be recovered or adequately secured in order to reduce the risk 
of theft or sabotage for malevolent acts; of these, 730 (22%) will have 
been secured by the end of FY 2008, leaving approximately 2,570 
vulnerable sites to be secured in the future. Within our current 
approved budget projections through FY2013, we anticipate spending 
another $160 million to address removal of nuclear material and another 
$150 million to address the recovery and security of radiological 
sources.
    The out-year budget profile contained in the President's FY 2009 
budget request adequately supports securing vulnerable nuclear 
materials where the NNSA is currently able to work. Future priorities 
for GTRI include addressing security concerns at an additional 130 
civilian sites possessing vulnerable nuclear and other radioactive 
materials that pose security concerns in the Democratic Republic of 
Congo, India, Libya, Malaysia, Mexico, Pakistan, Russia, Serbia, the 
Dominican Republic, Uganda, and the United States.
    Within the MPC&A Program mission area, over 85% of sites containing 
nuclear warheads and material in Russia and nuclear material sites 
other former Soviet states have been secured, and a majority of the 
remaining upgrades are on track to be completed by the end of FY 2008. 
The MPC&A Program is also adding more detection layers at some 
facilities by working at outer perimeter checkpoints to increase the 
probability of detection, and making any necessary final adjustments in 
response to changing conditions and emerging threats. The MPC&A Program 
does not anticipate expanding work in the former Soviet Union, but will 
remain engaged in order to maintain mutually beneficial exchanges 
between security experts.
    To address concerns about the security of weapons-grade nuclear 
material in other states, where relatively strong economies allow these 
countries to finance their own security systems, the MPC&A Program is 
engaging on nuclear security best practices. The MPC&A Program is 
cooperating with China to promote the adoption of modern security 
technologies at civilian nuclear facilities to provide a first line of 
defense against nuclear material theft, diversion and sabotage, and is 
interested in similar MPC&A cooperation in India. (Efforts to begin 
discussions with India have been hampered as a result of delays in 
concluding an agreement for peaceful nuclear cooperation under section 
123 of the Atomic Energy Act of 1954, as amended.)
    The MPC&A Program is also engaging internationally to strengthen 
MPC&A and safeguards practices globally as a long-term investment in 
the sustainability and viability of nuclear security in partner 
countries (Russia and other former Soviet states in particular) after 
bilateral cooperation ends. With our current approved budget 
projections through FY2013, we expect to spend approximately $850 
million on these activities, comprising the areas where NNSA is 
currently able to work. However, as other opportunities arise in the 
future, such as further expanding radiation detection layers around 
Russian nuclear sites or expanding training and sustainability 
activities with the Russian Ministry of Defense, additional resources 
could be required.
    Ms. Tauscher. Please discuss NNSA's ability to accelerate work 
within NNSA defense nuclear nonproliferation and possible limitations 
to accelerating work, if any. Please also discuss any other areas where 
you could do more to accelerate and strengthen programs if you had more 
funding.
    Mr. Tobey. NNSA's defense nuclear nonproliferation efforts are 
dynamic programs designed to address today's evolving proliferation and 
nuclear terrorism threats. Recognizing the urgency of this mission, we 
are working to the best of our ability to accelerate defense nuclear 
nonproliferation efforts across the globe. We are working to meet the 
accelerated timeline of existing efforts, such as those under the 
Bratislava Nuclear Security Initiative. Under the Bratislava 
initiative, we accelerated our nuclear security upgrade work in Russia 
by two full years. Separately, we have accelerated the completion date 
for installing radiation detection devices at all Russian border 
crossings by a full six years; shut down two plutonium producing 
reactors in Seversk, Russia six and eight months early (with efforts 
underway to shut down Russia's last such reactor as much as a year 
early); and accelerated our research reactor conversions from the 
historical rate of 1.5 per year to 5 conversions in FY2006 and 6 
conversions in FY2007, and we are on track for 8 in FY2008. We are also 
increasing our focus on work to secure civilian nuclear materials 
globally and working on efforts such as the Next Generation Safeguards 
Initiative to revitalize the technology base for international 
safeguards, in order to detect and deter proliferation activities 
worldwide.
    Additionally, we are increasingly emphasizing the so-called 
``second line of defense'' activities that complement nuclear security 
upgrades by providing a layered defense against nuclear proliferation 
should first line of defense efforts be compromised. In this regard, we 
are expanding and strengthening efforts such as the Megaports programs, 
our nuclear materials detection R&D work, and our International 
Nonproliferation Export Control and Commodity Identification Training, 
all of which help detect, deter, and interdict WMD-related materials 
trafficking.
    There are non-resource obstacles that can delay or prevent the 
acceleration of these efforts in certain cases, such as bureaucratic 
delays and political considerations in partner countries; and technical 
issues and technology gaps. However, NNSA will continue to mitigate and 
address such limitations to execute our defense nuclear 
nonproliferation mission efficiently.
    Ms. Tauscher. Can you describe NNSA's nuclear nonproliferation 
priorities? What are the primary areas of progress, and the main 
challenges facing NNSA nonproliferation efforts?
    Mr. Tobey. Our primary nuclear nonproliferation mission is 
detecting, securing and disposing of dangerous nuclear material 
worldwide. Further, our priorities are: 1) completing the Bratislava 
nuclear security upgrades by the end of 2008; 2) effective project 
management to ensure continued success of plutonium production 
prevention and disposition programs; and, 3) ensuring that our strategy 
meets the evolving threat we face. The third priority is resulting in a 
shift of emphasis from nuclear weapons material security work (which we 
are completing) to second line of defense efforts to detect and deter 
illicit transfers and to secure civil nuclear and radiological 
material.
    We have made remarkable strides in achieving that mission, 
including: repatriating over 600 kg of Russian-origin highly enriched 
uranium (HEU) and 1,145 kg of U.S.-origin HEU; securing over 635 
vulnerable radiological sites overseas and recovering over 17,525 
radiological sourced domestically; securing 85% of Russian nuclear 
weapons and material sites of concern; completing 12 operational 
``Megaports'' to help detect and interdict nuclear material at key 
seaports overseas with work underway at an additional 19 ports; 
monitoring the downblending of over 330 metric tons of Russian weapons-
origin HEU into LEU fuel; downblending over 94 metric tons of U.S. HEU 
into LEU fuel for commercial domestic reactors; and ending 43 years of 
plutonium production in Seversk, Russia by shutting down the city's two 
plutonium-producing reactors.
    We are also continuing our priority mission to strengthen the 
nonproliferation regime, including our work to help states implement 
United Nations Security Council Resolution 1540 by bolstering the 
implementation of physical protection, export control, and safeguards 
practices in over 50 countries worldwide. We also launched the Next 
Generation Safeguards Initiative to strengthen international 
safeguards, supporting the objectives of the Nuclear Nonproliferation 
Treaty and its safeguards obligations.
    We will continue and, where possible, accelerate these urgent 
nonproliferation efforts while focusing on our near-term priorities to: 
1) complete all Bratislava Nuclear Security Initiative upgrades in 
Russia by 2008, 2) shutdown Russia's only remaining plutonium 
production reactor in Zheleznogorsk no later than 2010; and 3) ensure 
the sustainability of completed nuclear security upgrades in Russia 
beyond the Congressionally-mandated USG funding cutoff of 2012. With 
respect to these near-term priorities, the challenge lies in obtaining 
high-level Russian governmental support--and Russian resources--to 
complete this work on time and transition responsibility to Russia.
    Ms. Tauscher. NNSA's Nonproliferation and Verification R&D Program 
is the sole remaining U.S. government capability for long-term nuclear 
nonproliferation research and development and other critical work that 
help keeps the U.S. on the cutting edge of technology. The program is 
also thinly staffed and supports many U.S. government entities outside 
of NNSA.
    What more can NNSA do to expand and strengthen this program, with a 
particular focus on significantly increasing the qualified scientific 
workforce in this area and developing the capacity to detect nuclear 
material origin and uranium enrichment and plutonium reprocessing?
    Mr. Tobey. NNSA strongly supports the nonproliferation research and 
development program. Integral to this work is a vigorous emphasis on 
long-term basic and applied research toward detection of foreign 
production of enriched uranium and plutonium, as well as radiation 
detection. NNSA actively works to integrate all phases of its R&D in 
these areas with other U.S. government R&D organizations to ensure that 
the maximum benefit is obtained for every research dollar, thereby 
providing cutting edge technology for NNSA needs, as well as that of 
the broader U.S. government. An area that has gained particular 
emphasis in the past two years is basic research in the academic 
community that not only directly supports NNSA nonproliferation 
missions, but also provides critical support to academic programs that 
are training the next generation of nonproliferation researchers.
    Ms. Tauscher. The Nonproliferation and International Security (NIS) 
program offers opportunities for robust activity on major current WMD 
proliferation concerns, including: activities to address proliferation 
concerns in North Korea and Iran; engagement on nonproliferation with 
Russia, China, India and other states; inter-agency participation in 
the Proliferation Security Initiative (PSI); assistance to the 
International Atomic Energy Agency (IAEA); cooperation on international 
safeguards and export controls in South Asia and the Middle East; 
efforts to strengthen U.S. commitments to international agreements and 
regimes; and the establishment of a contingency fund for opportunities 
to prevent WMD proliferation and terrorism that may arise.
    Why was the FY 2009 request for NIS below the FY 2008 funded level?
    Mr. Tobey. The FY 2008 Omnibus Budget Report included a one-time 
increase for NIS of $26.5 million above the President's request. These 
added funds were used to support U.S. monitoring of denuclearization 
activities in North Korea and a new effort--the Next Generation 
Safeguards Initiative (NGSI)--designed to strengthen international 
safeguards and revitalize the U.S. technical base that supports them.
    Ms. Tauscher. The Nonproliferation and International Security (NIS) 
program offers opportunities for robust activity on major current WMD 
proliferation concerns, including: activities to address proliferation 
concerns in North Korea and Iran; engagement on nonproliferation with 
Russia, China, India and other states; inter-agency participation in 
the Proliferation Security Initiative (PSI); assistance to the 
International Atomic Energy Agency (IAEA); cooperation on international 
safeguards and export controls in South Asia and the Middle East; 
efforts to strengthen U.S. commitments to international agreements and 
regimes; and the establishment of a contingency fund for opportunities 
to prevent WMD proliferation and terrorism that may arise.
    What more can NNSA do to expand and strengthen this critical 
program [NIS]?
    Mr. Tobey. NIS represents NNSA's most diverse nonproliferation 
program, ranging from implementation of laws and treaties that form the 
backbone of the international nonproliferation regime to the hands-on 
work of applying technology and partnering with foreign governments to 
build national capabilities to prevent nuclear proliferation. A key 
NNSA/NIS program looking forward is the Next Generation Safeguards 
Initiative (NGSI), through which the United States aims to fortify 
international safeguards and ease strains on the IAEA that are likely 
to worsen with the emerging growth in peaceful uses of nuclear energy. 
NGSI will take advantage of U.S. technical leadership in the Department 
and the National Laboratories and work in concert with others to ensure 
that the IAEA has the tools needed to carry out effective safeguards.
    Ms. Tauscher. The Nonproliferation and International Security (NIS) 
program offers opportunities for robust activity on major current WMD 
proliferation concerns, including: activities to address proliferation 
concerns in North Korea and Iran; engagement on nonproliferation with 
Russia, China, India and other states; inter-agency participation in 
the Proliferation Security Initiative (PSI); assistance to the 
International Atomic Energy Agency (IAEA); cooperation on international 
safeguards and export controls in South Asia and the Middle East; 
efforts to strengthen U.S. commitments to international agreements and 
regimes; and the establishment of a contingency fund for opportunities 
to prevent WMD proliferation and terrorism that may arise.
    What is NNSA doing to ensure that as it expands the scope of its 
nonproliferation programs globally, existing nonproliferation programs 
with Russia remain a cooperative endeavor and the U.S. Russia 
nonproliferation partnership continues to address remaining work in 
Russia and other possible opportunities for nonproliferation 
cooperation?
    Mr. Tobey. NNSA is working to transition our nonproliferation 
relationship with Russia from a donor-recipient relationship to a 
cooperative partnership, commensurate with changes in Russia's economic 
and political status and its willingness to work diligently on 
nonproliferation efforts since the inception of our work in Russia. The 
implementation strategy for this transition is three-fold: 1) 
transitioning responsibility for and sustainability of U.S. assistance 
provided to date; 2) accelerating the remaining nuclear security and 
nonproliferation work within Russia; and 3) expanding our partnership 
with Russia to promote global nuclear security objectives and provide 
assistance abroad.
    An excellent example of this strategy can be found in our 
partnership with Russia under the Bratislava Nuclear Security 
Initiative, which incorporates all three elements noted above, 
including an accelerated schedule of completion for remaining Russian 
nuclear security upgrades and cooperation to convert research reactors 
in third countries from HEU to LEU fuel and to repatriate the HEU fuel. 
Both the United States and Russia share a unique responsibility as 
advanced nuclear technology holders, as well as shared nonproliferation 
and counterterrorism interests. The U.S.- and Russian-led Global 
Initiative to Combat Nuclear Terrorism, now boasting over 70 partner 
countries, is an example of the benefits of cooperative leadership 
internationally. Together with NNSA's continued efforts on 
sustainability and cost-sharing, we look forward to building upon these 
and future opportunities for cooperation in these priority areas.
    Ms. Tauscher. Some NNSA nonproliferation programs have carried 
relatively large uncosted and/or unobligated balances over recent 
years.
    Do you expect any NNSA nonproliferation programs to have any 
uncosted unobligated balances in FY 2008? If so, are such balances 
reflected in the FY 2009 request for these programs? Please describe 
any progress by NNSA to limit uncosted and unobligated balances for 
NNSA nonproliferation programs, and the rationale, if any, for 
maintaining a certain level of such balances for these programs.
    Mr. Tobey. The Office of Defense Nuclear Nonproliferation plans to 
have minimal unobligated balances, and the target level for uncommitted 
uncosted balances for operations and maintenance activities is around 
13% for FY2008. These levels are consistent with the DOE and GAO 
guidance on appropriate threshold levels of carryover balances that are 
required for prudent operations at the beginning of the new fiscal 
year, and as such, no NN balances are deemed ``excess'' or available to 
offset the need for new FY 2009 appropriations.
    NNSA supports operating within the threshold targets for uncosted 
balances for all of its operating and maintenance programs. There are 
no thresholds for construction activities, due to the nature of 
contracting for this work. As such, the Elimination of Weapons Grade 
Plutonium Production (EWGPP) Program expects to have a total uncosted 
balance of about $120M at the end of FY 2008. These uncosted balances 
accrued due to Russian and 3rd party delays on a construction contract.
    Nuclear Nonproliferation programs have been on a good trend in 
executing their programs to reduce the amount of uncosted uncommitted 
balances at year end, despite rapid and substantial program growth in 
some areas. For example, the uncosted balances that have been carried 
by the Global Initiatives for Proliferation Prevention (GIPP) program 
have been halved over the last five years, with less than $20 million 
expected to be uncosted but obligated at the end of this fiscal year.
    Uncosted balances for DNN programs accrue largely because of the 
significant amount of DNN work conducted in foreign countries, 
including the Russian Federation and the Newly Independent States. 
Business transactions with these countries, including contract 
negotiations and contractual agreements, and the subsequent accounting 
of these transactions do not follow the normal obligation and costing 
patterns. Contract negotiations with a foreign entity may take from two 
to eighteen months to complete, with the actual work scope taking 
another three to six months to implement. This unique situation results 
in higher uncosted balances than many of the other NNSA programs whose 
business is conducted primarily within the United States. DNN programs 
have taken several steps to reduce the level of uncommitted uncosted 
balances, including: monthly financial reviews to determine whether 
funds need to be reallocated from areas where contract negotiations 
have slowed; progress reviews at sites to identify and resolve problems 
early where schedules slippages may be occurring; and efforts to ensure 
that all direct federal contracts and task orders are awarded in a 
timely manner. We will continue to identify and implement solutions to 
limit uncosted and unobligated balances.
    Ms. Tauscher. The risk of terrorism involving WMD is certainly not 
limited to the United States, and the success of U.S. efforts is 
dependent in large part on whether our international partners share a 
common recognition of the threat and a willingness to combat it.
    How is NNSA working with U.S. international partners to address 
these risks? What are international partners doing to contribute 
resources and funding to achieve our shared nonproliferation goals?
    Mr. Tobey. A key component of addressing the threat of terrorist 
acts involving WMD lies in reventing terrorist acquisition of WMD and 
related materials, equipment, and technology in the first place. To 
that end, the NNSA Office of Defense Nuclear Nonproliferation supports 
broader USG and NNSA counter WMD terrorism objectives through its 
mission to detect, secure, and dispose of dangerous nuclear material 
worldwide, cooperating with over 100 countries.
    In addition to efforts to secure materials in place and provide 
defense in depth through second line of defense activities, NNSA also 
helps strengthen the nonproliferation regime at its core. Such 
activities include strengthening multilateral regimes and supporting 
efforts such as the 2005 amendment to the Convention on the Physical 
Protection of Nuclear Material and its new provisions against the 
sabotage of nuclear facilities, and the recently extended United 
Nations Security Council Resolution 1540 Commission, as well as 
actively participating in multilateral efforts such as the Global 
Initiative to Combat Nuclear Terrorism and the Proliferation Security 
Initiative (PSI).
    International partners are also contributing resources, expertise, 
and leadership to support these key multilateral initiatives. To date, 
more than 70 countries have signed on to the Global Initiative, and 
more than 90 countries support PSI. Additional vehicles for cooperation 
such as the G-8 Global Partnership and NNSA's own ``Securing the Future 
Through an Integrated Nuclear Nonproliferation Strategy'' provide 
avenues for cooperation. To date, some seven countries (Canada, 
Finland, the Netherlands, New Zealand, Norway, South Korea, and the 
United Kingdom) have contributed nearly $45 million in contributions 
and pledges to NNSA's Defense Nuclear Nonproliferation programs alone. 
Just as the threat of WMD proliferation and terrorism is global in 
nature, so too must be our responses to address it. We look forward to 
continued cooperation internationally on this shared international 
security imperative.
    Ms. Tauscher. The risk of terrorism involving WMD is certainly not 
limited to the United States, and the success of U.S. efforts is 
dependent in large part on whether our international partners share a 
common recognition of the threat and a willingness to combat it.
    Can you give us any examples of ``cost sharing'' models for 
nonproliferation programs that could be leveraged?
    Mr. Tobey. One such example is the October 22-23, 2007, workshop 
held in conjunction with the Swiss Government, on ``Securing the Future 
Through an Integrated Nuclear Nonproliferation Strategy'' to promote 
new partnerships in addressing urgent nonproliferation and 
international security issues. This meeting included 45 attendees from 
15 countries and the IAEA and International Science and Technology 
Center (ISTC), with a view toward providing new partnership vehicles, 
identifying common objectives and shared opportunities and pooling 
limited resources--while doubling international contributions to NNSA's 
defense nuclear nonproliferation programs by 2010. To date, through 
this mechanism and others, NNSA has received nearly $45 million in 
international contributions.
    Additionally, specific programs have cost-sharing plans. For 
example, in Global Threat Reduction Initiative (GTRI) source recovery 
projects in a ``high-income'' country, GTRI pays for packaging labor, 
while the host country pays all remaining costs. The Megaports 
Initiative cost-shares, where feasible, with host governments and/or 
the port authority or terminal operator(s) at the port. Under the most 
typical cost-sharing approach employed by Megaports, the host nation 
pays for the design, engineering, construction and installation of the 
equipment, and in some cases limited maintenance, while DOE/NNSA pays 
for the radiation detection equipment (including radiation portal 
monitors and handheld detection equipment), the related communications 
system (including fixed cameras, optical character recognition or 
license plate reader systems, communications hardware, and software 
development), training, and limited maintenance and technical support.
    For example, Megaports worked with Dutch Customs in 2004 on a pilot 
project at one terminal in Rotterdam, where the Dutch Government fully 
funded the design, procurement, and installation of radiation detection 
equipment to scan container traffic at all of the terminals in 
Rotterdam. This model will also be duplicated in Spain, where the 
Spanish Government has decided that it will procure and install 
radiation detection equipment at all remaining Spanish ports, in 
consultation with DOE/NNSA. Numerous NNSA programs employ such specific 
strategies, including caps on USG funding, and NNSA will increasingly 
pursue cost-sharing.
    Ms. Tauscher. The risk of terrorism involving WMD is certainly not 
limited to the United States, and the success of U.S. efforts is 
dependent in large part on whether our international partners share a 
common recognition of the threat and a willingness to combat it.
    With Russia's economic growth and cash influx, has it taken on more 
responsibility in funding nonproliferation programs within its borders? 
Does Russia maintain any nonproliferation programs on its own? How is 
NNSA working with our Russian partners to move them towards``cost 
sharing'' models?
    Mr. Tobey. Russia has taken a more active role in the selection of 
nonproliferation and cooperative projects in which it undertakes with 
the United States. As truly cooperative projects or programs move 
forward with Russia that are clearly a Russian priority or of interest 
to them, it has become possible to move Russian partners towards ``cost 
sharing'' models.
    The Global Threat Reduction Initiative (GTRI) has been working in 
close cooperation with the Russian Federation to address cost sharing 
by Russia for our nonproliferation activities. Specifically, Russia is 
funding the long haul shipping costs for radioisotopic thermoelectric 
generator (RTG) recoveries, has funded the recovery of 12 RTGs, and has 
identified $19 million USD to be used for RTG recoveries in 2008-2015. 
In addition, Russia has committed to fund all storage costs for RTGs in 
the Far East, starting in 2010. Russia has also begun to address the 
recovery of both high and low level orphaned and/or abandoned 
radioactive sources, contributed to orphan source recovery activities 
at former Soviet sites in Azerbaijan and the Kyrgyz Republic, and 
completed physical protection upgrades at some radiological 
repositories throughout Russia and it is understood the these efforts 
will continue to address all repositories. Lastly, Russia is funding 
the development and manufacturing of a special uranium-molybdenum fuel 
to be used in potential future Russian research reactor conversions.
    The Elimination of Weapons Grade Plutonium Production (EWGPP) 
program implemented cost sharing with the Russian Federation at both 
projects in Seversk and Zheleznogorsk, Russia. U.S. funding caps were 
negotiated and established early in the implementation of both 
projects, which effectively transferred the cost risk of the projects 
to the Russian Federation.
    NNSA and Rosatom's Institute for Physics and Power Engineering 
(IPPE) split the costs on the creation of an export control training 
center, which is expected to be ready for use in the fall of 2008. 
Building on this initial success, INECP will continue to pursue cost 
sharing models in Russia. Additionally, the Global Initiative for 
Proliferation Prevention (GIPP) has initiated cost sharing discussions 
with Russian counterparts and anticipates several cost share projects 
in FY09.
    Russia is increasingly sharing the costs for implementing the MPC&A 
and Second Line of Defense Programs in its country. As part of the 
transition to full Russian responsibility for sustaining nuclear 
security upgrades, NNSA is currently negotiating with Rosatom how it 
will take on a larger share of sustainability costs. In 2007, DOE and 
Rosatom signed a Joint Statement on sustainability principles that 
outlines the budgetary, human resource, management and operational 
requirements for effective long-term Russian sustainability. A detailed 
MPC&A Joint Action Plan for 2007-2012 provides plans for transitioning 
specific activities and efforts.
    With regard to the Russian plutonium disposition program, the 
United States and Russia have recently agreed upon a financially and 
technically credible program to dispose of surplus Russian weapons-
grade plutonium based on irradiating it as MOX fuel in fast reactors. 
As this program is consistent with Russia's national energy strategy, 
the United States will cap its contribution to Russian plutonium 
disposition at $400 million and Russia will be responsible for the 
balance of costs for its multi-billion dollar program.
    Ms. Tauscher. With a relatively modest investment, the Global 
Initiatives for Proliferation Prevention (GIPP) program has employed 
thousands of former weapons scientists in Russia and nations of the 
former Soviet Union. Yet the program has been criticized this year by 
the General Accounting Office and the leadership of the House Energy 
and Commerce Committee as having supported scientists who contributed 
to Iran's nuclear program.
    Have GIPP funds been diverted to activities supporting the Iranian 
nuclear program?
    Mr. Tobey. There is no evidence that GIPP funds have been diverted 
to activities supporting the Iranian nuclear program. As reported to 
the House Energy and Commerce Committee, the Department's National 
Nuclear Security Administration (NNSA) has undertaken a thorough 
analysis of all GIPP projects and payments. That analysis concludes 
that no payments were made to Russian scientists funded by GIPP who are 
known to be supporting Iran's nuclear programs; nor were GIPP payments 
made to individuals at Russian institutes subject to U.S. sanctions.
    Further, GIPP program guidance requires that all project proposals 
be vetted through an interagency process to determine whether there are 
any proliferation concerns associated with projects, entities, or 
individuals proposed to carry out project work. GIPP projects that 
require a U.S. export license or authorization are subject to review by 
the appropriate U.S. interagency export control committees.
    To further strengthen the current review process, the Departments 
of Energy and State, in coordination with other U.S. agencies, recently 
updated project review procedures and criteria to ensure consistency 
across U.S. scientist engagement programs.
    Ms. Tauscher. With a relatively modest investment, the Global 
Initiatives for Proliferation Prevention (GIPP) program has employed 
thousands of former weapons scientists in Russia and nations of the 
former Soviet Union. Yet the program has been criticized this year by 
the General Accounting Office and the leadership of the House Energy 
and Commerce Committee as having supported scientists who contributed 
to Iran's nuclear program.
    How many scientists that might otherwise have been recruited by 
rogue states or terrorist groups have been employed via the GIPP 
program over the past three years? What has been the total investment 
in GIPP over that period?
    Mr. Tobey. In Russia and the former Soviet Union (FSU), the GIPP 
program has engaged thousands of scientists, engineers and technicians 
with a weapons of mass destruction (WMD) background in the last three 
years, taking into account that project participants are often engaged 
over multi-year projects (FY08: 3,100; FY07: 3,760; FY06: 4,690). GIPP 
engages individuals who, due to their specializations in technologies 
for design, testing and manufacturing of WMD, are logical candidates 
for recruitment by rogue states or terrorist groups. In broad terms, 
their involvement in GIPP projects diverts resources and expertise that 
might otherwise be available to support proliferation programs in 
countries of concern, and provides former weapons scientists and 
technical personnel with opportunities to pursue non-WMD work. Benefits 
also accrue by virtue of the relationships and trust established 
through collaborative commercial and civilian research projects, which 
in turn help foster communities of experts who cooperate with the 
United States to prevent proliferation.
    The total investment in GIPP over this time period totals 
$85,540,000. This sum also supports non-WMD personnel with marketing 
and other expertise necessary to commercialize sustainable project 
results, DOE laboratory participation and fixed administrative costs in 
the United States, as well as important redirection programs in Libya 
and Iraq. Budget constraints and priorities outside the FSU reduced the 
annual number engaged. The substantial plus-up that the program 
received in FY08 will increase the numbers again, taking into account 
an approximate one year delay between project approval and actual 
implementation due to the complex contracting process with Russian and 
FSU institutes.
    Ms. Tauscher. The Environmental Management (EM) budget has 
decreased in recent years, but the Department of Energy remains 
responsible for meeting thousands of site-specific regulatory 
milestones. Many of these milestones are enforceable via court 
sanctioned agreements, such as the Tri-Party Agreement in Washington. 
For FY 2009, the Department has identified 32 milestones at-risk of 
being missed, double the number at-risk in 2008. Of those 32 
milestones, 23 are at-risk due to budget constraints.
    How much investment would it take for DOE to achieve compliance for 
those 23 milestones at risk of being missed due to budget constraints?
    Secretary Rispoli. It is important to recognize that some 
milestones and obligations would have been missed regardless of the 
budgetary approach and the level of funding that was chosen. This is 
primarily the result of the relevant agreements having been negotiated 
years ago with incomplete knowledge by any of the parties of the 
technical complexity and magnitude of costs that would be involved in 
attempting to meet the requirements. Moreover, the cleanup program 
continues to be impacted by various safety, contract administration, 
project management, regulatory, legal, technical, economic, and other 
significant challenges. Consequently, isolating funding as the only 
issue placing some of the Department's cleanup milestones in jeopardy 
given the other confounding factors would be inaccurate and misleading.
    Ms. Tauscher. The Environmental Management (EM) budget has 
decreased in recent years, but the Department of Energy remains 
responsible for meeting thousands of site-specific regulatory 
milestones. Many of these milestones are enforceable via court 
sanctioned agreements, such as the Tri-Party Agreement in Washington. 
For FY 2009, the Department has identified 32 milestones at-risk of 
being missed, double the number at-risk in 2008. Of those 32 
milestones, 23 are at-risk due to budget constraints.
    What financial and other penalties might the Department face for 
failing to meet these 23 compliance milestones at-risk due to lack of 
adequate resources?
    Secretary Rispoli. Many of our regulatory agreements contain a 
provision that addresses noncompliance with enforceable milestones 
under which the parties may agree to renegotiate the due date for at-
risk milestones. When fines and penalties are issued, the governing 
statute or regulatory agreement usually establishes the maximum fine or 
penalty that can be imposed--for instance, $5,000 for the first week of 
non-compliance and $10,000 for each week thereafter. However, our 
regulators retain the discretion to impose no fines or lesser fines 
than the maximum allowable, so it is impossible to predict what actual 
fines will be until they are imposed, and even then they may be 
negotiated downward before they are paid.
    Ms. Tauscher. The Environmental Management (EM) budget has 
decreased in recent years, but the Department of Energy remains 
responsible for meeting thousands of site-specific regulatory 
milestones. Many of these milestones are enforceable via court 
sanctioned agreements, such as the Tri-Party Agreement in Washington. 
For FY 2009, the Department has identified 32 milestones at-risk of 
being missed, double the number at-risk in 2008. Of those 32 
milestones, 23 are at-risk due to budget constraints.
    What efforts is the Department making to mitigate the risks of 
meeting milestones?
    Secretary Rispoli. In planning its environmental cleanup efforts 
and developing the budget for those activities, the Department seeks to 
focus on work that will produce the greatest environmental benefit and 
the largest amount of risk reduction. The Department strongly believes 
that setting priorities and establishing work plans in this way is the 
most effective use of taxpayer funds and will have the greatest 
benefit, at the earliest possible time, to the largest number of 
people. In determining these priorities, the Department works closely 
with federal and state regulators, and will seek the cooperation of 
those entities in helping evaluate needs and focus work on the highest 
environmental priorities based on current knowledge, particularly where 
doing so necessitates modification of cleanup milestones embodied in 
prior agreements with DOE.
    Ms. Tauscher. The Environmental Management (EM) budget has 
decreased in recent years, but the Department of Energy remains 
responsible for meeting thousands of site-specific regulatory 
milestones. Many of these milestones are enforceable via court 
sanctioned agreements, such as the Tri-Party Agreement in Washington. 
For FY 2009, the Department has identified 32 milestones at-risk of 
being missed, double the number at-risk in 2008. Of those 32 
milestones, 23 are at-risk due to budget constraints.
    Does the Department intend to open new negotiations with states 
where court-sanctioned agreements are in place and milestones will be 
missed?
    Secretary Rispoli. The Department works closely with federal and 
state regulators, and will seek the cooperation of those entities in 
helping evaluate needs and focus work on the highest environmental 
priorities based on current knowledge, particularly where doing so 
necessitates modification of cleanup milestones embodied in prior 
agreements with DOE.
    Ms. Tauscher. Consolidation and disposition of special nuclear 
materials is a collaborative effort between EM and NNSA. To date, this 
collaboration has happened through the Nuclear Materials Disposition 
and Consolidation Coordinating Committee (NMDCCC), and organization 
whose charter will end upon completion of the implementation plans at 
the end of fiscal year 2008. DOE is currently shipping surplus non-pit 
weapons-grade plutonium to the Savannah River Site (SRS) from the 
Hanford Site, Los Alamos National Laboratory and Lawrence Livermore 
National Laboratory. The current plan for materials disposition is a 
three-pronged approach including the MOX facility, H Canyon (also at 
SRS), and construction of a vitrification capability at SRS. But last 
year, the Department informed Congress it was examining whether the 
vitrification capability was needed.
    In your view, what is the appropriate organizational framework to 
serve as follow-on to the NMDCCC? Should any particular office assume a 
strategic lead for any remaining planning?
    Secretary Rispoli. The Department has established an Office of 
Nuclear Materials Integration within the National Nuclear Security 
Administration. This Office has the responsibility for establishing 
nuclear material management policy for the Department, integrating 
nuclear materials disposition plans and tracking status against those 
plans. Program offices, such as the Office of Environmental Management, 
retain full programmatic responsibilities for the materials under their 
purview. The new office, working closely with the program offices, has 
the lead for developing strategic plans for the disposition and 
consolidation of the Department's nuclear materials.
    Ms. Tauscher. Consolidation and disposition of special nuclear 
materials is a collaborative effort between EM and NNSA. To date, this 
collaboration has happened through the Nuclear Materials Disposition 
and Consolidation Coordinating Committee (NMDCCC), and organization 
whose charter will end upon completion of the implementation plans at 
the end of fiscal year 2008. DOE is currently shipping surplus non-pit 
weapons-grade plutonium to the Savannah River Site (SRS) from the 
Hanford Site, Los Alamos National Laboratory and Lawrence Livermore 
National Laboratory. The current plan for materials disposition is a 
three-pronged approach including the MOX facility, H Canyon (also at 
SRS), and construction of a vitrification capability at SRS. But last 
year, the Department informed Congress it was examining whether the 
vitrification capability was needed.
    When will a final decision be made on whether to proceed with a 
Plutonium Vitrification Facility?
    Secretary Rispoli. By memorandum dated June 27, 2008, the Under 
Secretary of Energy approved use of the Mixed Oxide (MOX) and H-Canyon 
facilities as the revised preferred alternative for disposing of 
surplus non-pit plutonium, thereby eliminating the need to proceed with 
also establishing a plutonium vitrification capability. The Department 
is also preparing a Supplement to the Surplus Plutonium Disposition 
Environmental Impact Statement (EIS) and plans to issue the final 
Supplemental EIS and a Record of Decision on its surplus plutonium 
disposition strategy in early 2009.
    Ms. Tauscher. Consolidation and disposition of special nuclear 
materials is a collaborative effort between EM and NNSA. To date, this 
collaboration has happened through the Nuclear Materials Disposition 
and Consolidation Coordinating Committee (NMDCCC), and organization 
whose charter will end upon completion of the implementation plans at 
the end of fiscal year 2008. DOE is currently shipping surplus non-pit 
weapons-grade plutonium to the Savannah River Site (SRS) from the 
Hanford Site, Los Alamos National Laboratory and Lawrence Livermore 
National Laboratory. The current plan for materials disposition is a 
three-pronged approach including the MOX facility, H Canyon (also at 
SRS), and construction of a vitrification capability at SRS. But last 
year, the Department informed Congress it was examining whether the 
vitrification capability was needed.
    If the MOX facility is not built, could a vitrification facility be 
built that could dispose of all the plutonium slated for the MOX 
facility? What would such a facility cost?
    Secretary Rispoli. If the MOX facility were not built, the 
Department would have to reevaluate viable alternatives for the 
disposition of surplus weapons-grade plutonium. The Department has 
previously considered immobilization and may reconsider it as a 
disposition path for the surplus weapon-grade plutonium currently 
planned for the MOX facility. Cost estimates for immobilization are 
highly uncertain since the technology supporting the immobilization of 
plutonium would require additional R&D and the immobilized waste form 
has yet to be qualified for acceptance in the planned geologic 
repository at Yucca Mountain. Research and development of a ceramic 
immobilization process was halted seven years ago and restarting such a 
program now would require at least 10-12 years to complete the 
necessary R&D, design and construction before such a facility were able 
to become operational in the 2018-2020 timeframe. The amount of time 
necessary to immobilize this large quantity of weapon-grade plutonium 
would extend beyond the planned operating life of the Defense Waste 
Processing Facility (DWPF) at the Savannah River Site, moreover there 
is an insufficient quantity of high-activity waste at DWPF to 
immobilize this quantity of surplus plutonium.
    Ms. Tauscher. The FY 2009 NNSA budget request includes $77.4 
million for a new program called Transformation Disposition. Does EM 
have an eventual role in the NNSA's Transformation Disposition? Will EM 
coordinate with NNSA on these efforts?
    Secretary Rispoli. The National Nuclear Security Administration 
(NNSA) is using their new Transformation Disposition (TD) as the 
principal funding source to achieve footprint reduction through the 
sale, transfer, or demolition in support of Complex Transformation. A 
portion of the TD program resources will be used to support transfer of 
NNSA's process-contaminated excess facilities to EM. DOE currently uses 
the transfer process in DOE Order 430.1B, Real Property Asset 
Management, which outlines the acceptance criteria for transferring 
facilities from one DOE program to another. The NNSA and EM are in the 
coordinating phase on what process-contaminated excess facilities meet 
acceptance criteria for transfer.
    Ms. Tauscher. Do NNSA and EM have a plan for coordination of D&D 
and cleanup activities at NNSA sites?
    Secretary Rispoli. Legacy environmental cleanup, including D&D 
activities at the National Nuclear Security Administration (NNSA) sites 
are funded by the Office of Environmental Management (EM) and 
coordinated with the NNSA. These activities have been established as 
formal projects within the Department of Energy (DOE) following the 
procedures established by EM and the requirements of DOE Order 413.3A 
Program and Project Management for the Acquisition of Capital Assets. 
The terms of oversight and direction for these projects at the NNSA 
sites have been formalized by joint memorandum Authority for 
Environmental Work at National Nuclear Security Administration Sites 
signed by the Assistant Secretary for Environmental Management and the 
Associate Administrator for Infrastructure and Environment, National 
Nuclear Security Administration dated October 27, 2005. The NNSA is 
coordinating with EM on the potential transfer of excess facilities 
that are process contaminated. DOE uses the transfer process in DOE 
Order 430.1B, Real Property Asset Management, which outlines the 
acceptance criteria for transferring facilities.
    Ms. Tauscher. According to GAO, not all DOE sites will fully 
implement the Design Basis Threat (DBT) by the end of FY 2008, as 
required by DOE's 2005 DBT. What have been the challenges in meeting 
the requirements of the 2005 DBT?
    Secretary Rispoli. DOE and National Nuclear Security Administration 
(NNSA) facilities were originally required to meet the 2005 DBT by the 
end of 2008. The initial deadline was changed to allow the DOE/NNSA's 
program offices to determine the ``How'' and ``When'' of the 2005 DBT 
implementation. The deadline was changed in recognition of the 
Departmental direction to minimize the number of high-equity facilities 
through material consolidation, and the actual time required to fully 
analyze the 2005 DBT and develop and implement appropriate and cost-
effective enhancement proposals.


                                     Y-12: Will be complete in FY 2011.
                                     LANL: Will be complete in FY 2011.
                                     SNL: The de-inventory of Category I
                                      special nuclear material has
                                      been completed.
                                     Pantex: Will be completed during FY
                                      2008.
                                     LLNL: The de-inventory of Category
                                      I special nuclear materials will
                                      be completed in FY 2012.
                                     Kansas City: Has no special nuclear
                                      material.
                                     Nevada: Will be completed in FY
                                      2009.
                                     OST: Will be completed in FY 2008.




INL:                                 INL has completed several physical
                                      security upgrades to comply with
                                      the 05 DBT. In November 2007, the
                                      Assistant Secretary for Nuclear
                                      Energy approved a revision to the
                                      NE Implementation Plan for the
                                      2005 DBT that identifies the
                                      actions required for NE to become
                                      fully compliant with the 2005 DBT
                                      by the end of FY 2013.

SRS:                                 The Savannah River Site (SRS) will
                                      complete implementation of the
                                      2005 DBT by September 30, 2008.
                                      The major facility impacted by the
                                      2005 DBT is the K-Area Complex, a
                                      key site in the Department's
                                      plutonium consolidation
                                      initiative.

RL/Hanford:                          In April 2006, the Deputy Secretary
                                      of Energy approved an exemption
                                      for the Richland/Hanford Site's
                                      Plutonium Finishing Plant (PFP) to
                                      implement the 2005 DBT, based on
                                      plans to de-inventory PFP's
                                      surplus plutonium inventory by the
                                      end of 2009. In September 2007,
                                      DOE decided to continue surplus
                                      plutonium consolidation to the
                                      SRS. These shipments from PFP to
                                      SRS are well underway and it is
                                      anticipated they will be completed
                                      by September 2009. However, some
                                      residual spent nuclear fuel will
                                      be relocated to the Canister
                                      Storage Building complex which
                                      will be 2005 DBT compliant by
                                      December 2009.

ORNL:                                Building 3019 is a non-enduring
                                      facility and therefore not
                                      required to implement the 2005
                                      DBT. Additionally, there are no
                                      other Office of Science sites with
                                      Special Nuclear Materials
                                      quantities requiring
                                      implementation.



    Ms. Tauscher. The Waste Treatment Plant (WTP) is designed to treat 
100 percent of the High Level Waste and 50 percent of the Low Activity 
waste currently stored in tanks at Hanford. DOE has funded an effort to 
develop a Bulk Vitrification system to process 50 percent of the low 
activity tank waste, but costs for this system have doubled over the 
past four years, and progress has been slow. When the contract was 
awarded in 2004, the objective was for a technology demonstration in 
2006; but in a June 2007 report, GAO noted that the estimate for such a 
demonstration is 2012 or later. The FY 2009 budget request reports that 
engineering-scale bulk vitrification tests were successful and Critical 
Decision-2 (Approve Performance Baseline) may occur in January 2008, 
but this milestone has not been met. The FY 2009 request also cuts 
funding for Bulk Vitrification to $1 million and proposes two 
alternative paths for processing low activity waste (increasing the 
capacity of the Low-Activity Waste Facility of the WTP and early 
startup of the Low-Activity Waste Facility).
    Please provide an update on EM's disposition plan for low activity 
waste at Hanford.
    Secretary Rispoli. The Department is developing a strategy to 
accomplish the tank cleanup mission. It is expected that this strategy 
will be completed in the comings weeks. The Waste Treatment Plant has 
the capacity to immobilize 100 percent of the high level waste and 50 
percent of the low activity waste. To address the remaining 50 percent 
of low activity waste, we are conducting studies to determine options 
for low activity waste treatment. These activities have included: 
commissioning a technical consultant review team to evaluate the 
current disposition plans, developing pre-conceptual studies of an 
interim pretreatment capability, evaluating the feasibility of 
installing a third melter in the Low Activity Waste Facility, 
evaluating the feasibility of installing enhanced capacity melters in 
the Low Activity Waste Facility; and determining the viability of an 
early startup of the Low Activity Waste Facility.
    Ms. Tauscher. In a January 2007 report to this committee, GAO found 
that among other security challenges at LANL, the Los Alamos Site 
Office lacked the security staff required to conduct oversight of the 
LANL contractor, and often such officials lack proper training. From 
your perspective as Chief Health, Safety and Security Officer for all 
of DOE, does the Los Alamos Site Office have an adequate number of 
properly trained security officers?
    Mr. Podonsky. As a point of clarification to the question, the Los 
Alamos Site Office (LASO) has a staff of career federal security 
professionals; they do not have security officers (armed or unarmed 
guards). To evaluate the LASO's oversight of the contractor, the Office 
of Independent Oversight performed a comprehensive inspection of the 
LASO and the Los Alamos National Laboratory (LANL) during the fall of 
2006 and found that staffing within LASO was insufficient to fully 
oversee the laboratory's safeguards and security program. While LASO 
had integrated the Department's technical qualification program for 
safeguards and security into training program and staff generally met 
established qualification requirements, skill mix issues were evident. 
The recent departure of the LASO Assistant Manager for Safeguards and 
Security and vacant security positions continue to challenge the site 
office's ability to perform effective oversight of the LANL.
    The Office of Independent Oversight has scheduled another 
comprehensive inspection at LANL during August-September 2008 and will 
evaluate LASO progress in improving its safeguards and security 
oversight capabilities.
    Ms. Tauscher. The FY 2008 National Defense Authorization Act 
requires the GAO and then the NNSA to examine alternatives for managing 
protective forces at all NNSA and Department sites with special nuclear 
material. Has the GAO contacted the Department about this review? Is 
NNSA Defense Nuclear Security working with the Department conduct a 
review?
    Mr. Podonsky. Mr. Jonathan Gill, Assistant Director, Government 
Accountability Office (GAO) conducted an entrance briefing with NNSA 
concerning the FY 2008 National Defense Authorization Act (DOE 
Protective Force Options: GAO Engagement 360953) on June 10, 2008. In 
August 2007, the National Nuclear Security Administration (NNSA), 
Office of Defense Nuclear Security was tasked by the NNSA Administrator 
to conduct an analysis and comparative survey examining several options 
for performing Protective Force duties at NNSA sites, including the use 
of an enterprise-wide contractor, federalization of existing security 
employees, or a combination of the two. The ``Comparative Analysis of 
Contractor and Federal Protective Forces at Fixed Sites'' also 
identified benefits of standardization across the NNSA Complex, 
including reduction of preparation time required for response to 
potential work stoppages resulting from strikes. DOE is awaiting 
completion of the GAO study (approximately March 2009) in accordance 
with the FY 2008 National Defense Authorization Act prior to submitting 
a report within 90 days to the Committee on Armed Services of the 
Senate and the Committee on Armed Services of the House of 
Representatives.
    Ms. Tauscher. Should the Department revise or update the 2005 DBT?
    Mr. Podonsky. The Department of Energy is currently in the process 
of assessing the technical basis and applicability of the 2005 Design 
Basis Threat (DBT). The DBT and the basis for the DBT are reviewed 
annually to ascertain if the current performance metric and adversary 
capabilities are adequate. A 2008 revision to the DBT is under review.
    Ms. Tauscher. The FY 2008 NDAA directs NNSA--in consultation with 
your office--to conduct an assessment of the physical and cyber 
security risks posed to the nuclear weapons complex and the security 
technologies employed against those threats, and prepare a report 
identifying the manner in which it prioritizes investments in physical 
and cyber security of the weapons complex. The report would be included 
in the annual Future Years Nuclear Security Plan (FYNSP).
    Is the NNSA working with your office in conducting this assessment 
and report?
    Mr. Podonsky. The NNSA has assigned this work to Sandia National 
Laboratories. Sandia has not yet contacted the Office of Health, Safety 
and Security (HSS) to provide input, support or review, but NNSA has 
assured us that the scope of work provided to Sandia includes 
consultation and coordination with HSS.
    Ms. Tauscher. The FY 2008 NDAA directs NNSA--in consultation with 
your office--to conduct an assessment of the physical and cyber 
security risks posed to the nuclear weapons complex and the security 
technologies employed against those threats, and prepare a report 
identifying the manner in which it prioritizes investments in physical 
and cyber security of the weapons complex. The report would be included 
in the annual Future Years Nuclear Security Plan (FYNSP).
    How does the Department prioritize investments among physical and 
cyber security?
    Mr. Podonsky. Departmental program elements prioritize funding for 
physical and cyber security based upon policy requirements and 
recommendations and findings from oversight organizations. The 
Department's Office of Chief Information Officer (OCIO) has program 
responsibility for cyber security that includes development of policy. 
The Office of Health, Safety and Security (HSS) has the responsibility 
for policy development, for physical security, and independent 
oversight for both physical and cyber security. HSS and OCIO coordinate 
policy and response to oversight findings when both cyber and physical 
security are involved.
    Ms. Tauscher. Your office is the central DOE organization 
responsible for health, safety and security policy development, 
assistance, oversight and enforcement.
    What is the extent of your office's authority in establishing DOE 
security policies?
    Mr. Podonsky. The Office of Health, Safety and Security (HSS) is 
the corporate policy office within the Department of Energy (including 
NNSA) for the development, maintenance, interpretation and revision of 
various Departmental security policies, less cyber security. These 
include: Safeguards and Security Program Planning and Management, 
Protective Force, Physical Protection Security, Information Security 
for Classified Material, Personnel Security (including the Human 
Reliability Program), Nuclear Materials Control and Accountability and 
the Design Basis Threat. HSS also provides Government-wide and 
Department-wide policies, procedures and guidance for information 
classified or controlled under statute or executive order to protect 
the national security (especially Restricted Data), and controlled 
unclassified information. HSS-proposed policies are subject to review 
and comment by other Departmental elements through the formal 
Departmental Directives Program. When comments from this process are 
reconciled, the policy receives final approval from the Deputy 
Secretary of Energy.
    Ms. Tauscher. Your office is the central DOE organization 
responsible for health, safety and security policy development, 
assistance, oversight and enforcement.
    Does your office have the necessary authorities to execute its 
oversight authorities?
    Mr. Podonsky. While not established by legislation, the Office of 
Independent Oversight, within the Office of Health, Safety and 
Security, has clearly defined authorities that facilitate effective 
implementation of the Office's independent oversight responsibilities. 
The Office's defined authorities have been longstanding and are 
embodied primarily in DOE Order 470.2B, Independent Oversight and 
Performance Assurance Program. The establishment of this order by the 
Secretary of Energy provides clearly defined authorities for scheduling 
and conducting inspections to evaluate the effectiveness of DOE line 
management performance in the areas of safeguards and security; cyber 
security; emergency management; and environment, safety and health. 
Further, the order obligates DOE line management organizations and 
their contractors to support, participate in, and respond to 
Independent Oversight inspections. The formation of HSS has further 
supported the Independent Oversight mission by creating enhanced 
organizational interfaces with offices that are responsible for 
establishing policy, providing assistance to line management, and 
conducting enforcement actions.
    Ms. Tauscher. When HSS was established, it was structured to ensure 
you were not responsible for any operational elements, with one 
exception. Nevertheless, within your organization there appears to be 
an office responsible for the security of the DOE Headquarters 
facilities, which would seem to represent a conflict of interest. That 
is, an office with setting policy and providing oversight is also 
conducting operations that need to comply with those very policies.
    Does the Department have a plan to address this conflict?
    Mr. Podonsky. The Department acknowledges that the presence of the 
Office of Security Operations within HSS does present a potential 
conflict of interest, in that the Office of Security Operations is 
responsible for implementing security for DOE Headquarters facilities. 
Other elements of HSS establish security requirements which they must 
comply with, and the HSS Office of Independent Oversight is charged 
with undertaking periodic review as to the effectiveness of 
implementation. That potential conflict has been at least partially 
mitigated through the strength of internal controls within the HSS 
organization. Security policy and oversight functions report to the HSS 
Deputy Chief for Operations, whereas the Office of Security Operations 
reports directly to the Chief Health, Safety and Security Officer. The 
independence and objectivity of Independent Oversight results are 
insulated through the use of a senior Quality Review Board that ensures 
that the results presented to the implementer (Office of Security 
Operations), and to the Chief Health, Safety and Security Officer, are 
complete and fully supported. The Department recognizes that most of 
the ``landlord'' functions (including safety and health) for the 
Headquarters facilities have been assigned to Office of Management 
(MA), and is considering transferring most functions of the Office of 
Security Operations to MA.
    Ms. Tauscher. HSS was established not only to improve program 
management for the health, safety and security functions within DOE, 
but also to improve the health, safety, and security for DOE workers. 
These responsibilities include a commitment to provide medical 
screening examinations for former employees to identify adverse health 
effects that may have resulted from working at DOE facilities. The 
committee understands that more than 600,00 people are eligible to 
participate in the former worker program and may need screening. This 
element (Occupational Health) of the HHS budget was appropriated $16.4 
million in FY 2008, and the budget request for FY 2009 is $17.9 
million.
    Please explain how this program can adequately provide for all the 
former workers who seek medical screening examinations with its modest 
funding.
    Mr. Podonsky. As of November 2007, over 51,000 comprehensive 
medical screening examinations have been provided to those who 
volunteered to participate in the program. In addition, follow-up re-
screening exams have been provided to over 5,700 former workers. For FY 
2009, HSS has requested an additional $1,539,000 to ensure that the 
Former Worker Medical Surveillance Program can provide additional 
medical screenings. This additional funding is required to continue the 
goal of serving all interested former workers from all DOE sites. These 
additional funds are especially necessary in order to work through the 
backlog of individuals waiting to be screened through the National 
Supplemental Screening Program, a Former Worker Program project that 
provides medical examinations for former workers who no longer reside 
in close proximity to the regional screening clinics. Based on the 
historical level of medical screenings that have been conducted and the 
utilization rate in FY 2008, HSS believes this increase in funding and 
the resultant increase in medical screenings are sufficient to meet the 
needs of the program and will eliminate the backlog of former workers 
who have volunteered to participate in the program.

                                  <all>

</pre></body></html>
